<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                       WEDNESDAY, MARCH 15, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:32 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Roy Blunt (chairman) presiding.
    Present: Senators Blunt, Capito, Kennedy, Rubio, Murray, 
Shaheen, and Manchin.

  STEM EDUCATION: PREPARING STUDENTS FOR THE CAREERS OF TODAY AND THE 
                                 FUTURE


                 opening statement of senator roy blunt


    Senator Blunt. Good Morning. How are you all?
    The Appropriations Subcommittee on Labor, Health, Human 
Services, Education, and Related Agencies will come to order.
    Let me make an opening statement before I turn to Senator 
Murray.
    First of all, we're glad you're here providing students 
with high quality education in science, technology, 
engineering, and math, now usually referred to as the STEM 
skills. This is critical for economic competitiveness and 
frankly the security of our country. It will support future 
National Institutes of Health funded scientists seeking cures 
for deadly diseases, computer science engineers preventing 
cyber-attacks on our businesses and national infrastructure, 
and advanced manufacturing technicians building everything from 
medical devices to airplanes.
    A STEM education from preschool through college provides 
the basic skills and competencies all students need and 
prepares them for well-paying careers across education levels. 
The median annual STEM wage is more than double the median wage 
for all workers. This holds true across education levels, 
including the 25 percent of STEM workers with less than a 
bachelor's degree. For example, workers with associate level 
STEM degrees earn an average of 66 percent more annually than 
their peers at the same education level.
    The number of STEM-related jobs is also expected to grow 
faster than the overall job market in the future and expecting 
high rates of retirement in some STEM fields, particularly 
manufacturing, will mean even more opportunities for people 
entering the workforce and people who have just entered the 
workforce.
    This hearing will explore some of the programs and 
activities funded through the Labor, Health, and Human Services 
Appropriation Bill and their impact on STEM education. These 
programs range from in school and after school pre-K programs 
to NIH career fellowships to training dislocated workers. In 
addition, other Federal policies, while not specifically 
involving STEM, directly impact students seeking careers in 
those fields. For example, reinstating year-round Pell grants 
as this subcommittee proposed last year, will be critical for 
students pursuing STEM degrees and careers, particularly those 
who are first-time students or community college students or 
students who have left school and are coming back as older 
students, than the average new student at a college.
    As we continue to focus on training the 21st century 
workforce, there are many ongoing challenges that Federal STEM 
education efforts must address. We need to better prepare and 
train teachers. We need to promote more diversity in STEM. We 
need to ensure opportunities are available to students in 
rural, urban, and suburban areas alike, but we also need to 
make sure Federal STEM education efforts are well coordinated 
and that we do everything we can to avoid duplicating programs.
    I look forward to hearing from our witnesses today. They 
have unique perspectives and experiences working with different 
levels of our education and training systems. And I hope 
members find this beneficial as we continue to look at this 
important area.
    [The statement follows:]
                Prepared Statement of Senator Roy Blunt
    Good morning. I want to thank our witnesses for appearing before 
the Subcommittee today.
    Providing students with high-quality education in STEM--science, 
technology, engineering, and math--is critical for the economic 
competitiveness and security of our Nation. It will support future 
National Institutes of Health-funded scientists seeking cures for 
deadly diseases, computer science engineers preventing cyberattacks on 
our businesses and national infrastructure, and advanced manufacturing 
technicians building everything from medical devices to airplanes.
    STEM education, from preschool through college, provides the basic 
skills and competencies all students need, and prepares them for well-
paying careers across education levels. The median annual wage for STEM 
workers is more than double the median wage for all workers. This holds 
true across education levels, including the 25 percent of STEM workers 
with less than a bachelor's degree. For example, workers with associate 
level STEM degrees earn, on average, 66 percent more annually than 
their peers with the same education level. The number of STEM-related 
jobs is also expected to grow faster than the overall job market in the 
future. And, expected high rates of retirement in some STEM fields, 
particularly manufacturing, will mean even more opportunities for 
younger workers.
    This hearing will explore how programs and activities funded 
through the Labor/HHS appropriations bill impact STEM education. These 
programs range from in-school and after-school K-12 programs, to NIH 
career fellowships to training dislocated workers. In addition, other 
Federal policies, while not specifically involving STEM, directly 
impact students seeking careers in those fields. For example, 
reinstating year-round Pell grants, as this Subcommittee proposed last 
year, will be critical for students pursuing STEM degrees and careers, 
particularly those at community colleges.
    As we continue to focus on training our 21st Century workforce, 
there are many ongoing challenges that Federal STEM education efforts 
must address. We need to better prepare and train teachers. We need to 
promote more diversity in STEM. And we need to ensure opportunities are 
available to students in rural, urban, and suburban areas alike. But we 
also need to make sure Federal STEM education efforts are well 
coordinated and avoid duplication.
    I look forward to hearing from our witnesses today. They have 
unique perspectives and experiences, working with different levels of 
our education and training systems, which I hope Members find 
beneficial as we continue to address our Nation's STEM priorities.
    Thank you.
    Senator Blunt. I'm certainly pleased to be joined by 
Senator Murray, who I am working together with on these issues 
and we jointly welcome our witnesses.
    Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Well, thank you very much, Mr. Chairman, 
for holding this hearing today and I want to thank all of our 
witnesses for traveling here today, especially Caroline King 
who came all the way across the country from my home State. 
Great to have you all here.
    We all recall that when President Obama took office the 
economy was in a ditch. We were losing 800,000 jobs a month 
with key sectors like the construction and auto industries on 
the verge of collapse. Thanks to swift action by President 
Obama, we were able to halt the decline by 2010. President 
Trump took the oath of office as we experienced the 75th 
consecutive month of positive job growth.
    However, the economy is not working well enough yet for all 
Americans. That is why we need to focus our attention on the 
investments necessary to provide economic opportunity for all 
workers, not just those at the top. Investments in education 
and training are some of the most important we can make, and 
those in STEM fields are sorely needed.
    However, for too many students in schools, a high-quality 
STEM education is not an option. The latest civil rights data 
collection reveals some glaring inequities across the Nation. 
Just 33 percent of high schools with high black and Latino 
student enrollment offer calculus--33 percent, compared with 56 
percent of high schools with low black and Latino student 
enrollment.
    And that is the kind of inequity that our Every Student 
Succeeds Act is intended to remedy. That bipartisan bill 
provides more flexibility to State and local school systems and 
establishes strong guardrails of accountability and civil 
rights protections for achievement for all students. However, 
the law first needs to be implemented well. I am very concerned 
that will be undermined, by the repeal of an important ESSA 
(Every Student Succeeds Act) ruling last week. The law also 
needs to be adequately funded for it to be fully successful for 
all students, no matter where they live or how they learn or 
how much money their parents make.
    But this subcommittee is responsible for funding more than 
just STEM-related education and training. Less than 3 years 
ago, we passed the Workforce Investment and Opportunity Act, 
known as WIOA with overwhelming bipartisan support. This 
critical law updated our workforce development system.
    Working with Chairman Blunt, I was very pleased we have 
maintained critical investments in the workforce system, 
including funding for the Apprenticeship Grants Program. 
Expanding access to apprenticeships has been a top priority for 
me because it sets workers on a clear career pathway and 
ladders into the middle class.
    Finally, we all know our success in supporting the 
workforce our Nation needs starts at the earliest ages. As a 
mom and a former preschool teacher, I know firsthand the 
natural curiosity our youngest learners' exhibit. And research 
has shown that children greatly benefit from high quality early 
learning programs. Unfortunately, for too many kids, high 
quality early education is not available. Less than 50 percent 
available children have access to Head Start.
    Increased funding is needed to expand access to more kids 
and continue support for program quality improvements. That is 
difficult to do in the current environment, but the bipartisan 
spending bill in this subcommittee that we wrote last spring 
would at least protect important investments in these and other 
critical programs while still providing the $2 billion increase 
for NIH that we discussed during our last week's hearing.
    Regrettably, the fate of that bill remains uncertain. And 
more troubling are reports of President Trump's fiscal year 
2018 budget that is set to be delivered to Congress this week. 
I understand that it will propose a $54 billion cut in non-
Defense discretionary spending to offset an equivalent increase 
in the Defense budget. I hope that Congress will continue to 
abide by the parity principle we have followed in bipartisan 
budget agreements that we have reached in recent years. I fear 
that if we don't we will find it very difficult to find the 
common ground that has characterized the work of this committee 
during its long history to make the broad STEM-related 
investments that our economy and our workforce need.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator Murray. Senator Shelby 
submitted a statement for the record, without objection.
    [The statement follows:]
            Prepared Statement of Senator Richard C. Shelby
    I would like to welcome and thank Dr. Neil Lamb of the HudsonAlpha 
Institute for Biotechnology, located in Huntsville, Alabama, for 
testifying before the Labor, Health and Human Services, Education, and 
Related Agencies Appropriations Subcommittee this morning. Dr. Lamb has 
an extremely impressive resume and background, and I commend him and 
the Institute for the many major scientific breakthroughs made over the 
years. These discoveries would not have been possible without the STEM 
education programs that Dr. Lamb and others received throughout their 
academic journey. I believe that STEM education is and will continue to 
be vital for students as our Nation moves forward in developing our 
21st century economy. Dr. Lamb, I would also like to thank you for your 
work to increase STEM education literacy for students across the 
country. I look forward to continuing to work with you, HudsonAlpha, 
other institutions, and my subcommittee colleagues to increase access 
to valuable STEM programs.

    Senator Blunt. Again, welcome to our witnesses. Let me 
briefly introduce you and then we will give you all time to 
speak in the order that you are introduced here.
    Dr. Neil Lamb is the Vice President of Educational Outreach 
at HudsonAlpha Institute for Biotechnology. Dr. Sarah Tucker is 
the Chancellor at the West Virginia Council of Community and 
Technical College Education. Caroline King, the Chief Policy 
and Strategy Officer at Washington STEM, already mentioned by 
Senator Murray. And Larry Plank is the K-12 STEM Director for 
Hillsborough County Public Schools in Tampa, Florida.
    So, glad you are here and you can use up to 5 minutes in 
any way you want to. You can read or summarize or even not use 
all of that time and then we will have more time for questions, 
but thank you all for joining us.
    Dr. Lamb.
STATEMENT OF NEIL LAMB, PH.D., VICE PRESIDENT FOR 
            EDUCATIONAL OUTREACH, HUDSONALPHA INSTITUTE 
            FOR BIOTECHNOLOGY, HUNTSVILLE, ALABAMA
    Dr. Lamb. Good morning, Chairman Blunt, Ranking Member 
Murray, and members of the subcommittee. Thank you for inviting 
me to offer testimony this morning regarding the importance of 
STEM education in workforce development.
    I'm privileged to work at the HudsonAlpha Institute for 
Biotechnology, which is a non-profit genomic sequencing and 
research institute in Huntsville, Alabama. At HudsonAlpha, we 
use our genomics expertise to create a better tomorrow. In a 
nutshell, we analyze DNA and use it and understand the changes 
to help us better create life, how to better understand life. 
Our scientists are recognized experts in human and plant 
genomics.
    We also have more than 30 biotech organic ions co-located 
on our campus, including a clinic dedicated to whole genome 
sequencing for disease diagnosis. Industry entrepreneurs sit 
elbow to elbow with researchers, clinicians and educators and 
society benefits from the collaboration that results.
    As the Vice President for Educational Outreach, I help 
nurture tomorrow's science workforce. My team provides 
educational tools for learners of all ages and our programming 
extends from early career exploration for children to in-depth 
workshops for senior citizens. As a result, we have a unique 
understanding of the current state of STEM literacy as well as 
the ingredients required to assemble a pathway for lifelong 
learning.
    The United States has long been the world leader in using 
science and technology to drive innovation and build wealth. 
Today, the U.S. Department of Commerce notes that STEM careers 
are growing at nearly double the rate of other occupations. 
Unfortunately, we are not producing enough qualified graduates 
to fill these jobs. For every STEM professional available for 
hire, there are nearly 2 open STEM positions.
    Simultaneously, American students are falling behind the 
rest of the world when it comes to STEM knowledge. Among 
industrialized nations, the most recent PISA (Program for 
International Student Assessment) assessments rank U.S. 
students 24th in science and 38th in mathematics. We should be 
doing everything possible to improve these rankings.
    At HudsonAlpha, to engage, retain, and prepare students for 
STEM-related careers in genomics, we implement approaches that 
connect learning with real world applications.
    During our 10-year history, HudsonAlpha's educational 
programs have utilized funding from three Federal agencies: the 
Department of Labor, NASA, and the National Institutes of 
Health. From 2007 to 2010, HudsonAlpha participated in a 
Department of Labor Workforce Innovation and Regional Economic 
Development Grant. This funding developed hands-on modules for 
middle and high school students linking classroom genetic 
concepts to the careers that use that knowledge on an everyday 
basis.
    This support also launched our summer internship program. 
More than 250 interns from 36 colleges and universities have 
trained at the Institute with many advancing to careers in 
genomics research, bioinformatics, and science communication.
    In 2010, HudsonAlpha received funding from the National 
Aeronautics and Space Administration to construct an 
interactive children's exhibit about cells, as well as 
introduce older students to emerging research and career 
possibilities in genetics and biotechnology. HudsonAlpha also 
implemented a summer academy for high school biology teachers, 
which is a critical component of our professional learning 
pathway.
    A 2011 to 2017 National Institutes of Health Science 
Education Partnership Award developed Touching Triton. This is 
an online game about complex disease risk. Students analyze 
family history, medical records, and genomic test results for 1 
of 6 crewmembers embarking on a 20-year mission to a distant 
moon of Neptune. Based on their assessment of disease risk, 
students then work in teams to pack the spacecraft with the 
appropriate resources to maintain crew health. The online game 
launched nationally last year and has been selected as a 
finalist in the Serious Games Showcase and Challenge.
    In closing, Alabama students, educators, and the 
biotechnology industry have been positively impacted by the 
Federal initiatives that support STEM in our education 
programming. Nearly 80 percent of Alabama high schools use 
HudsonAlpha developed kits. Our workshops and summer academies 
benefit a network of over 500 Alabama educators. Both these 
initiatives were launched with Federal funding and they now 
significantly shape the trajectory of life science education 
across our State.
    For every dollar awarded in Federal education funds, 
HudsonAlpha has obtained 4 dollars of non-Federal funding. This 
includes corporate support from companies such as Boeing and 
Lockheed Martin, as well as private philanthropic dollars, 
institutional support, and State educational funds. Licensing 
agreements have further expanded our impact and today 
HudsonAlpha kits and digital resources are used by over 1 
million individuals, including students from all 50 States and 
over 139 countries.
    Again, I'd like to thank the committee for the opportunity 
to speak about the importance of supporting STEM education and 
workforce preparation. I would also like to thank the State's 
delegation, specifically Senator Shelby, for the continued 
support of this issue and of HudsonAlpha. Sustained Federal 
funding for STEM is critical, especially in the face of fierce 
competition from countries that seek to overtake our position 
in achievement and innovation.
    Thank you.
    [The statement follows:]
                Prepared Statement of Neil Lamb, P.h.D,
    Good morning Chairman Blunt, Ranking Member Murray, and members of 
the Subcommittee. Thank you for inviting me to offer testimony today 
regarding K-12 STEM education and workforce development, a subject 
about which I am particularly passionate.
    I work at the HudsonAlpha Institute for Biotechnology, a nonprofit 
genomic sequencing and research institute focused on accelerating 
scientific discovery into biotech entrepreneurship. The Institute is 
located in Huntsville, Alabama--a city where over 16 percent of the 
metropolitan workforce holds a job in a STEM-related field (https://
www.bloomberg.com/graphics/2015-stem-jobs/). At HudsonAlpha, we create 
a better tomorrow using our expertise in research, patient care, 
innovation and education. We analyze and interpret DNA to understand 
its meaning. This includes genetic information from patients with 
health issues, from agriculturally important crops, and from organisms 
that may provide untapped sources of energy. Our president and science 
director, Richard Myers, managed a team that sequenced a significant 
percentage of the human genome and we are one of the top DNA sequencing 
centers in the country. Our faculty are recognized experts in both 
human and plant genomics. A clinic on our campus is dedicated to whole 
genome sequencing for disease diagnosis. Also on our campus are more 
than 30 biotech companies--some in the same hallways as our research 
labs. As part of the HudsonAlpha model, industry entrepreneurs sit 
elbow to elbow with researchers, clinicians and educators--and society 
benefits from their collaboration.
    However, by themselves, scientific and technical capability cannot 
translate genomic knowledge into well-being; an understanding of basic 
genetics and genomics is required by a number of key social and 
occupational groups, such as physicians, farmers, legislators and the 
general public, in order for the full promise of genomic discovery to 
be realized.
    As the Vice President for Educational Outreach at the Institute, it 
is my privilege to strategically help cultivate a scientifically 
literate society and to nurture the formation of tomorrow's life 
science workforce. Our programming targets learning from youth through 
workforce professional development and on to continued adult education. 
This means HudsonAlpha has a unique understanding of the current state 
of STEM literacy as well as the necessary ingredients to assemble a 
pathway encompassing a lifetime of learning. I hope that today's 
hearing contributes to a larger conversation not only about the 
importance of STEM education and workforce development, but also the 
necessity of a STEM-literate citizenry for the well-being of our 
society at large.
    The current landscape:
STEM Jobs Increasing as Prepared Future Employees Decreasing
    The United States has long been the world leader in using science 
and technology to drive innovation and build wealth. The STEM field has 
contributed to more than 50 percent of post-World War II US economic 
growth, even though it historically has accounted for only about 5 
percent of the American workforce. Today, the U.S. Department of 
Commerce notes that STEM careers are growing at 17 percent, nearly 
double the rate of growth in other occupations. Eighty percent of the 
fastest growing America jobs require STEM skills.
    Unfortunately, our country is currently not producing enough 
qualified graduates to fill these jobs. For every STEM professional 
available for hire, there are nearly two open STEM positions. Almost 
two and a half million unfilled STEM job vacancies are estimated for 
the coming year.
A Poor Foundation, a Leaky Pipeline and a Learning Disconnect
    Simultaneously, American students are academically falling behind 
the rest of the world, lacking a strong STEM foundation. Results from 
the Programme for International Student Assessment, show that among 
industrialized nations, U.S. students ranked 24th in science and 38th 
in mathematics. Similarly, while nearly half of last year's 2.1 million 
high school graduates who took the ACT test expressed an interest in 
STEM majors or careers, just over a quarter of those interested 
students met or surpassed the ACT STEM benchmark--an indicator of 
whether a student is appropriately prepared for first year science and 
mathematics coursework. About 60 percent of students who initially 
enroll in a STEM-based major in switch to a non-STEM field or drop out 
of college entirely. Among women and minorities, that number rises to 
80 percent.
    At HudsonAlpha, these national statistics are mirrored in our 
Alabama observations. This is often referred to as the ``leaky'' STEM 
workforce development pipeline. The consequences are a decline in the 
number of students who ultimately become scientists, engineers and 
workforce innovators.
    To engage, retain and prepare students for careers in STEM-related 
fields such as genomics, we see a critical need to implement approaches 
that connect learning with real-world application. Recent developments 
in genomics and biotechnology offer solutions to pressing issues of 
human health and food security. New discoveries advance the field 
rapidly. Healthcare professionals must be grounded in genomics to bring 
state-of-the-art diagnosis and treatment to patients. Farmers must rely 
genomics as a tool to shape breeding strategies for livestock and 
crops. Entrepreneurs must have sufficient appreciation of genomics, 
capital and access to talent in order to develop and market genomic 
innovations effectively. Speaking more broadly, all American consumers 
require the necessary science literacy to make informed choices about 
how genomics impacts their lives, as well as the lives of family and 
friends.
STEM Education at HudsonAlpha
    For these reasons, HudsonAlpha passionately pursues educational 
outreach to students, teachers, health professionals and the community 
at large. We leverage the scientific discoveries and their commercial 
applications to build activities and experiences that foster genomic 
literacy and prepare tomorrow's science and technology workforce. I am 
honored to work with a remarkable team of talented individuals who 
provide educational resources that are in the hands of students, 
teachers, clinicians, and everyday citizens across Alabama, throughout 
the country and around the globe.
Federal Funding Programs Leveraged at Hudsonalpha
    During our 10-year history, HudsonAlpha's Educational programs have 
leveraged funding from three Federal agencies: The Department of Labor, 
NASA and the National Institutes of Health. Each of the programs 
developed with Federal funding helped to build a stronger foundation in 
science education, plug the leaky workforce pipeline, or provide 
experiences that applied science knowledge to real-world situations.
  1.  From 2007-2010, HudsonAlpha was one of the key partners in a U.S. 
        Department of Labor Workforce Innovation in Regional Economic 
        Development (WIRED) grant for North Alabama and South Central 
        Tennessee. This funding developed hands-on modules for middle 
        and high school students to explore chromosome behavior in 
        cells, diagnose genetic disorders and use bioinformatics 
        databases to reinforce concepts about DNA structure and 
        function. Each activity linked genetics concepts to the 
        professionals who use this knowledge in their everyday career. 
        Over the last 6 years, we have expanded from three to eleven of 
        these activities, annually reaching more than 100,000 students 
        nationwide.
     This Department of Labor support also allowed HudsonAlpha to 
        launch a summer internship program with the nonprofit research 
        labs and educational outreach, economic development and 
        communications departments as well as with many of the biotech 
        companies located on the campus. Undergraduate and master's 
        level graduate students participate in internship experiences 
        that range from in-depth laboratory research to biotechnology 
        marketing, communications and business strategy. Today, more 
        than 250 BioTrain interns from 36 colleges and universities 
        have trained at the Institute and many have advanced to careers 
        in genomics research, bioinformatics and science communication.
  2.  In 2010, HudsonAlpha received funding from the National 
        Aeronautics and Space Administration to construct an 
        interactive children's exhibit about cells, as well as 
        introduce older students to emerging research and career 
        possibilities in genetics and biotechnology. HudsonAlpha also 
        implemented a summer academy for high school biology 
        instructors. This two-week program produced significant gains 
        in educator content knowledge about genetics, and measurably 
        increased educator confidence in teaching that content to 
        students. Today, summer educator programs continue to be a 
        cornerstone of our professional learning programs.
  3.  A 2011-2017 National Institutes of Health Science Education 
        Partnership Award allowed us to develop Touching Triton--an 
        online serious game using the concept of long-term space travel 
        to understand common complex disease risk 
        (triton.hudsonalpha.org). Students analyze family history, 
        medical records and genetic test results for one of six 
        crewmembers embarking on a 20-year space mission to a distant 
        moon of Neptune. Based on their assessment of disease risk, 
        students work in teams to pack the spacecraft with the 
        appropriate resources to maintain crew health. Our educators 
        collaborated with NASA engineers to ensure spacecraft design 
        and storyline elements were scientifically accurate 
        (www.nasa.gov/audience/foreducators/touching-triton). The 
        online game is now implemented in classrooms across Alabama and 
        was launched nationally at last year's National Association of 
        Biology Teachers meeting. With over 12,000 student accounts 
        created to date, it was selected as a 2015 finalist in the 
        Serious Games Showcase and Challenge, organized by the 
        Interservice/Industry Training, Simulation and Education 
        Conference.
The Success of Hudsonalpha's Educational Pathway
    Alabama students, educators and the biotechnology industry have 
significantly benefitted from the Federal initiatives that supported 
our educational programming. From our campus in Huntsville, Alabama, 
HudsonAlpha's team of science educators provide educational tools and 
learning opportunities that are utilized by learners of all ages in our 
State, across the U.S. and around the world. Nearly 80 percent of 
Alabama high schools use HudsonAlpha-designed classroom kits. Our 
workshops and summer academies strengthen a network of over 500 Alabama 
educators. These two initiatives, both launched with Federal funding, 
significantly shape the trajectory of life science education across our 
State.
    Moreover, programs launched with Federal funds have become models 
for programming other States. Licensing agreements have expanded our 
reach nationally and our digital activities are used around the globe, 
reaching more than 1 million individuals across all 50 States and in 
139 countries.
    For every dollar awarded in Federal funds, HudsonAlpha has obtained 
4 dollars of non-Federal funding. This includes corporate support from 
groups like Boeing and Lockheed Martin, as well as private 
philanthropic dollars, institutional support, and State educational 
funds.
STEM Leadership, Federal Funding and a Stem-Literate Society is 
        Critical
    With fierce competition from other countries seeking to overtake 
the U.S. position in achievement and innovation, sustained national 
support of STEM literacy is critical. At the same time, States, 
nonprofits and industry must also invest to nurture budding science and 
engineering professionals. A motivated and growing workforce pipeline 
is required to keep pace with emerging human needs. The innovations 
that provide solutions will come from creatively applied STEM advances. 
Children today will pursue STEM careers that we haven't even imagined, 
and we will be faced with making decisions regarding how to apply 
scientific discoveries that have not yet been made to our lives. One of 
our Nation's most essential responsibilities will be preparing our 
citizenry to lead the world in the development and use of advanced 
science and technologies will continue to be one of our Nation's most 
essential responsibilities.
    Again, I'd like to thank the committee for providing this 
opportunity to speak about the importance of Federal support for STEM 
education and workforce preparation. I would also like to thank our 
State's delegation, specifically Senator Shelby, for the continued 
support of this issue and of HudsonAlpha. On behalf of our founders, 
research faculty and the 35 biotechnology companies housed on our 
campus, I'd like to extend an invitation to visit and/or hold a future 
field hearing on the HudsonAlpha campus.
    [Attachments follow:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Blunt. Thank you, Dr. Lamb.
    Dr. Tucker.
STATEMENT OF SARAH TUCKER, PH.D., CHANCELLOR, WEST 
            VIRGINIA COUNCIL FOR COMMUNITY & TECHNICAL 
            COLLEGE EDUCATION
    Dr. Tucker. Good morning, and thank you Chairman Blunt, 
Ranking Member Murray, and subcommittee members. A special 
thanks for Senator Capito for reaching out to me about speaking 
today and to Senator Manchin. Both have been very strong 
supporters of our community colleges and I can't tell you how 
grateful I am for that.
    My name is Sarah Tucker and I am the Chancellor of the West 
Virginia Community and Technical College System. I am here 
today to talk with you about STEM education and its role in the 
relationship between community colleges and industry. I have 
outlined several partnerships in my written testimony, but in 
the interest of time, I would like to discuss just one of those 
with you today. That is the partnership between BridgeValley 
Community and Technical College and Toyota Motor Corporation.
    Several years ago, BridgeValley and Toyota collaboratively 
designed a 2-year associate degree program in advanced 
manufacturing technician. This program combines cutting edge 
STEM curriculum with paid work experience. Students attend 2 
full days of classes at BridgeValley Community College and work 
3 full days a week at Toyota. Upon successful completion of the 
program, students can begin working at Toyota for about $61,000 
per year plus benefits. For our students, this opportunity is 
lifechanging.
    We have partnerships like this across the Mountain State. 
Almost all are in STEM fields because, frankly, the fastest 
growing industries in West Virginia--manufacturing, IT, 
healthcare, and, yes, even energy--are all STEM fields. We have 
found that partnerships like the one between Toyota and 
BridgeValley are more successful if they include a few key 
components. And I believe the Federal Government could help 
support and grow States' capacity to do this work by focusing 
on some of those essential components.
    The first of these is academic preparation. Students in 
STEM fields need a strong backing in science and math. Many of 
our students do not see themselves as STEM students in high 
school, but they do see themselves as career tech education 
students. Help us to strengthen their preparation through a 
focus on hands-on STEM education in career tech ed. This could 
become even a focus of the reauthorization of the Perkins Act.
    The second component is the inclusion of paid workplace 
opportunities. These opportunities are absolutely essential for 
our low-income students, for our adults, and particularly for 
our dislocated workers. These students have a whole host of 
obligations facing them that traditional students do not have 
and those obligations interfere with their ability to go to 
school. Earning a wage while enrolled increases their chances 
of being successful.
    Paid workplace opportunities can take several different 
forms. On the job training and registered apprenticeships are 
well supported at the Federal level. I would also encourage you 
to think about shorter term internship opportunities. Companies 
often need more flexibility than on the job training and 
apprenticeships can provide.
    In West Virginia, we have had terrific success placing 
students who are being trained through our many National 
Emergency Dislocated Training Worker Grants into internships. 
We luckily have a small State supported fund to do so, but if 
you allowed some internship to become part of the available 
Federal training monies, it would open up many more 
possibilities for students and for employers alike.
    The last essential component that I want to mention is the 
importance of accelerated programs and open entry, open exit 
programs. I have been told many times by my counterparts in 
workforce offices that people are not laid off on a semester by 
semester basis, nor do they have the ability to enroll in 
college for several years. They need a job and they need to be 
able to support their families.
    As a recipient of a $25 million TAC grant, part of our goal 
was to build the infrastructure to support programs like these 
that would appeal to our dislocated worker students. We found 
that the elimination of summer Pell has unwittingly hurt these 
efforts. When a 2-year program is accelerated, students 
typically are expected to attend college through the summer 
months so that they can finish more quickly, but a lack of 
summer Pell can stand in the way of students being able to do 
so. I truly appreciate the support this body has shown for 
reinstating summer Pell and I hope that it continues to provide 
that support.
    Our public, community, and technical colleges provide 
students with incredible opportunities. As one of our Toyota 
students put it, ``I could not afford to go to college, so this 
was the only route I had that I could afford to do. The fact 
that you get a 2-year degree and all the hands-on experience 
you've got here, it does not match anything else anywhere.''
    I am proud of the work that we do and proud of the work 
that is yet to come. On behalf of our students, I thank you for 
the work you have done and the work you will continue to do to 
move our country's workforce forward. As Chancellor for the 
West Virginia Community and Technical College System, I know 
our colleges change people's lives, but I also know that that 
change would not be possible without strong partnerships and 
support from people like you. Thank you for this opportunity.
    [The statement follows:]
              Prepared Statement of Sarah A. Tucker, Ph.D.
    Thank you, Chairman Blunt, Ranking Member Murray, and Subcommittee 
members for the opportunity to speak about the need for STEM education 
and partnerships between business and industry. I would like to extend 
a special thanks to Senator Shelley Moore Capito for reaching out to me 
to speak here today and also, Senator Manchin. Both are strong allies 
for community colleges in West Virginia. It is not often that a small 
State like West Virginia has the opportunity to have both Senators on 
such a prestigious committee and I am certainly thankful that we do.
    My name is Sarah Tucker. I am the Chancellor for the West Virginia 
Community and Technical College System. As you are all well aware, West 
Virginia has seen a significant downturn in its coal mining industry, 
leaving thousands of able workers unemployed. It is the goal and 
mission of the Community College System to offer these, and indeed all, 
West Virginians with workforce programs that will lead to gainful 
employment. Most of these programs are science, technology, 
engineering, and math or STEM programs, which I am here to talk with 
you about today.
    First, let me tell you a little bit about who we are. The Community 
College System of West Virginia is comprised of nine public community 
colleges at 27 different locations across the Mountain State. Our 
annual headcount enrollment is nearly 28,000 students, 55 percent of 
whom attend college on a part-time basis. Our average student age is 28 
years old and the vast majority of our students, about 92 percent, are 
West Virginia residents. As you can imagine, given these demographics, 
our students have a whole host of challenges that many traditional 
students do not have to face. In fact, these challenges largely face 
students in community colleges in your State too. They typically have 
families to feed, mortgage and car payments, childcare issues, and 
sometimes parents for whom to care. Many of them are either out of 
work, or are under employed--working a job that does not let them make 
ends meet or get ahead. These circumstances often cause our students to 
need to get into and out of a program that will lead them to a high 
wage career as quickly as possible. In West Virginia, nearly all of 
those careers are in the STEM fields. Namely, the four largest growth 
industry sectors in West Virginia are: manufacturing, healthcare, IT, 
and energy--all STEM areas.
    While the STEM fields have historically been thought of as the 
purview of highly accomplished baccalaureate students, it is becoming 
increasingly clear that community and technical colleges are critical 
to providing STEM education and training for much of tomorrow's 
workforce. In West Virginia, and indeed across the Nation, business and 
industry are turning to their community college partners to provide 
them with the technical workforce they need. This change has been a 
welcome challenge in West Virginia. I say it is a challenge, because 
our community college students often come to us unprepared for college-
level work. With upwards of 65 percent of our students requiring 
developmental coursework in mathematics, teaching these students to 
become proficient in a STEM field, that is necessarily reliant on 
mathematical understanding, poses a significant challenge for our 
colleges, but it is a challenge that we are successfully meeting.
    West Virginia's community colleges are nationally recognized as 
being leaders in developmental education reform. Each of our colleges 
has moved to a co-requisite design for math and English instruction for 
unprepared students, which means that students are taking the college 
level coursework they need to be successful in their field, while 
simultaneously receiving support to help them master the content. We 
have seen students in math courses improve their success rates from 13 
percent to 64 percent. This change is having a significant effect on 
the retention rates of our STEM majors, for whom, mathematics is often 
a stumbling block.
    Another major stumbling block for our students is how they view 
themselves and the role of higher education in their lives. If you 
asked our students whether their mechatronics or electrical lineman 
program was a STEM program, they would probably tell you ``no.'' Many 
of our students choose their major based on the availability of a job. 
They honestly do not care and probably do not even think about whether 
or not they are in a STEM major. They care about whether or not they 
will be employed when they graduate and what their wages will be. 
Moreover, students are particularly interested in going to school while 
simultaneously earning a wage. Having the opportunity to work in their 
field while going to college increases students' retention and 
graduation rates, and makes them more marketable when they enter the 
workplace. This is one of the reasons that partnerships with business 
and industry, particularly in STEM fields, are so vital to our 
community colleges and our students.
    By their very nature, STEM majors are technical, often equipment 
intensive, and require highly trained faculty members. In other words, 
these majors are expensive. Faculty salaries are typically higher in 
STEM fields than they are in others, the cost of state-of-the-art 
equipment and keeping curricula and training up to date can be cost 
prohibitive. Through our industry partnerships, we have been able to 
overcome many of these obstacles. The community college system relies 
on our partners to help us validate curriculum, provide equipment, and 
loan us skilled employees to work as adjunct faculty at our colleges. 
In return, the colleges ensure that they recruit, train, and graduate 
students who are qualified to meet workforce demands.
    We have several partnerships with business and industry in the STEM 
fields that I would like to highlight for you today. Perhaps one of our 
most successful is between BridgeValley Community and Technical College 
and Toyota Motor Corporation. In 2012, Toyota West Virginia and 
BridgeValley launched the Advanced Manufacturing Technician Program. 
This is a 2-year Associate's degree program that combines cutting-edge 
STEM curriculum with paid work experience through a world-class 
manufacturer. Students attend two full days of classes each week, and 
work in Toyota's plant 3 days each week. They must maintain a ``C'' or 
higher in each of their classes to remain eligible for the program. By 
the time students have graduated from the program, they can be hired 
into Toyota at a base salary of $61,000 per year plus benefits. Adam, 
one of the first graduates of the program said, ``I couldn't afford to 
go to college. So this was the only route I had that I could afford to 
do. The fact that you get a 2-year degree, and all the hands on 
experiences you've got here, it doesn't match anything else anywhere.''
    Toyota has been a tireless partner with BridgeValley. They 
continually work with the college to make sure that students are 
learning what Toyota needs them to know to be successful in automotive 
manufacturing. BridgeValley designed a laboratory in its Advanced 
Technology Center that mimics the production line students will see in 
Toyota. The equipment BridgeValley uses to train students in this lab 
is the same equipment they will see in Toyota's Buffalo, WV plant. 
After receiving feedback from students, BridgeValley even went so far 
as to mark the location of each piece of equipment, on the floor with 
the same red tape used by Toyota. Again, the purpose of this exercise 
is to replicate employee workspace in the student learning space.
    As a result of this successful partnership, Toyota Motor 
Corporation generously donated robots to BridgeValley, so that students 
could be trained on the most state-of-the-art equipment. Toyota also 
donated $1 million for the ongoing maintenance and care of their 
Advanced Technology Center, appropriately named ``Toyota Hall.'' The 
fourth cohort of students is scheduled to graduate this spring. 
Graduates have either gone to work for Toyota, NGK, Honda or Gestamp, 
or they have decided to continue their education.
    A second STEM partnership that I would like to highlight for you is 
with New River Community and Technical College. New River's notable 
partnership has been made possible by the National Emergency Dislocated 
Worker Training Grants provided by this body to the U.S. Department of 
Labor. New River has developed an Electric Distribution Engineering 
Technology program that has been widely utilized by our dislocated coal 
miners. Companies like Pike Electric, Sowers Electric, and American 
Electrical Equipment Inc. have provided work-based learning 
opportunities for dislocated coal miners enrolled in this program. The 
National Emergency Dislocated Worker Training Grants have provided 
students with tuition dollars so that they can enroll in training with 
New River. This program has become popular among coal miners because it 
is accelerated, taking only fourteen weeks to complete, it provides a 
high-wage job opportunity $15.50 per hour with a $1 per hour raise 
every 6 months, and it allows a laid off coal miner the opportunity to 
remain in their community while they earn a living. In fact, these 
employees can top out at pay anywhere from $37 to $39 per hour or 
$76,960 to $81,120 per year.
    Electrical lineman work is mobile by its very nature. Employees 
travel to the site of storm damage, or to towns and cities undergoing 
upgrades to electrical systems. Typically, linemen work four days on 
and three days off. This allows a dislocated coal miner to earn wages 
similar to or higher than he or she was earning in the mines, and 
remain in their home community. In August 2016, thirty-two dislocated 
miners, oil and gas workers and other dislocated workers graduated from 
the Electrical Distribution program. Each had their tuition paid for 
through funds allocated through National Emergency Dislocated Worker 
Training Grants. One such student, Mark, a laid-off coal miner said of 
New River's program: ``It's been great. I got a job right out of the 
program. I got on the job training and now I can help get my family 
back to where we need to be. It just feels good to be able to provide 
for my family again and not be dependent on coal.'' In total, three 
cohorts of students have completed training and a fourth is set to 
graduate soon. All students have gotten jobs after graduation.
    We have also had terrific success in our partnerships between the 
oil and gas industry and two of our community colleges, West Virginia 
Northern Community College and Pierpont Community and Technical 
College. Similar to the other partnerships I have outlined, several oil 
and gas companies have helped us validate our curriculum, donated 
equipment, and provided significant scholarship opportunities for our 
students in the petroleum technology and mechatronics programs. 
Industry partners in this endeavor have included: First Energy, Noble 
Energy, Columbia Pipeline, MarkWest, Dominion Energy, Southwest Energy, 
Chevron and Chesapeake. Many students have entered positions starting 
at a wage of $26.50 an hour. First Energy and Pierpont have formed a 
particularly strong alliance. The President of West Virginia for 
FirstEnergy, Holly Kaufmann recently spoke at the dedication of 
Pierpont's North Advanced Technology Center saying that their 
partnership is a great example of, ``how business and education can 
work together to create opportunities for our next generation to be 
successful right here in West Virginia.'' The North Central Advanced 
Technology Center is a shining example of the intersection of STEM 
fields and partnerships between community colleges and business and 
industry. Housing laboratories for Applied Process Technology, 
Petroleum Technology, Electrical Utility Technology, and a wide variety 
of Health Care fields, this facility, along with its counterpart Toyota 
Hall, has truly solidified our community colleges' role in training 
West Virginia's STEM workforce.
    I would be remiss if I did not mention the wonderful opportunity 
that Procter and Gamble's recent move to West Virginia has afforded our 
residents and Blue Ridge Community and Technical College. Over the next 
3 years, Procter and Gamble will need to hire more than 700 employees 
at their West Virginia facility. Each of these employees needs 
education and training in STEM fields, primarily Mechatronics, 
Instrumentation Process Controls, and Applied Laboratory Technicians. 
Blue Ridge is currently poised to become one of Procter and Gamble's 
national training centers. However, Blue Ridge will not be able to 
supply this workforce alone. They are working closely with area high 
schools to provide a strong STEM education pipeline for potential 
Procter and Gamble employees. These pipelines are desperately needed 
between K-12 and community colleges to help ensure that students come 
to us well prepared for the coursework in front of them.
    The final program that I would like to share with you today is our 
successful partnership with West Virginia's Department of Health and 
Human Resources (WVDHHR). Through this partnership WVDHHR has made 
Federal funding available to encourage and support Temporary Assistance 
for Needy Families (TANF) recipients interested in enrolling in 
training programs at our community and technical colleges. Initiated 
for the first time statewide in the fall of 2016, we have a total of 
155 TANF recipients enrolled in our community colleges and we expect 
this number to grow in future semesters. Most of these recipients are 
single mothers under the age of 40. Typically, these students are 
intimidated about going to college and lack many of the academic skills 
associated with success in college. Interestingly, the majority of 
these students enter STEM fields, particularly fields related to 
healthcare. Brandy, a single mother, who earned two associate degrees 
through this program told others interested in participating, ``Don't 
ever give up. There are agencies and people out there who will help you 
and will do everything they can to get you where you need to be.'' 
Brandy, is now employed, working with foster youth, and able to support 
her family.
    Through this partnership, again funded through Federal dollars, 
WVDHHR and our community colleges are able to get students the help 
they need to be successful in college, as well as troubleshoot any 
impediments, like childcare and transportation needs, they may have 
that would prohibit them from going to school. Our initial pilot of 
students saw more than ninety percent of students in program passing 
their fall semester and more than seventy percent with a GPA above a 
2.0. We are hopeful that we will continue to see this success as the 
program matures and are encouraged that so many of our students entered 
STEM fields. Similar to the Nation, West Virginia is not only facing a 
nursing shortage, but is generally facing a shortage in trained 
healthcare professionals. Federal-State program outcomes like these 
provide hope that we may be able to change the life course of a family 
while also meeting a significant workforce need.
    I would like to take a moment to thank this subcommittee for voting 
for year round Pell Grants. For those of us at community colleges, 
particularly those that are trying to retrain dislocated workers and 
TANF and Supplemental Nutrition Assistance Program (SNAP) recipients, 
summer Pell is vital to our success. Students receiving workforce 
retaining dollars are often required to attend continuous training, 
which becomes difficult if they are unable to receive Pell in the 
summer. Business and industry push our colleges to provide accelerated 
programs, which we have been able to design through Trade Adjustment 
Assistance Community College and Career Training (TAACCCT) funding. 
However, without summer Pell, many of our students cannot afford to 
take advantage of these accelerated programs designed to get them into 
the workforce more quickly. Indeed, it seems that by eliminating summer 
Pell, we may have inadvertently hurt the very students Pell is designed 
to help. So I thank you for your support of that change and I sincerely 
hope that you will continue to support it in the coming months.
    Federal support and collaboration on our STEM-focused training 
opportunities is invaluable for West Virginia's community colleges and 
for community colleges in States nationwide. On behalf of myself and my 
colleagues at community colleges across the Nation, I encourage the 
Appropriations Committee to enhance and support programs that are 
working across the country, including:
  --National Emergency Dislocated Worker Training Grants
  --Year-round Pell
  --GEAR UP
  --Tech Hire
  --Career and Technical Education
  --Internships, Apprenticeships, and Workplace Training
    I cannot emphasize enough the value that these programs provide 
across our Nation. Students, employers, schools, and communities have 
benefited significantly from these programs. Youth who never thought 
they could attend college are doing so because of the work of our GEAR 
UP programs and career technical education. Adults who have lost their 
jobs or are struggling with under-employment and never believed they 
would get an opportunity to better their lives and the lives of their 
families, are getting that second chance through the National Emergency 
Dislocated Worker Training Grants, and workplace training 
opportunities.
    I would also encourage you to expand the definition of ``training'' 
and ``apprenticeships.'' Training is often defined as a 1-year 
certificate or 2-year associate degree, but there are several short 
term training programs that can lead to well-paying careers. Similarly, 
apprenticeships can take on many forms, including but not limited to, 
registered apprenticeships. Workplace training opportunities, like 
short term, flexible internships also provide students with experience 
in their field and are often more desirable to employers. Broadening 
definitions to include short term training opportunities and workplace 
internships could go a long way to enhancing retraining efforts that 
are already underway.
    Our public community and technical colleges provide students with 
incredible opportunities. I am proud of the work that we do and proud 
of the work that is yet to come. On behalf of our students, I thank you 
for the work you have done and the work you will continue to do to move 
our country's workforce forward. As Chancellor for the West Virginia 
Community and Technical College System, I know our community colleges 
change people's lives. But I also know that change would not be 
possible without strong partnerships and support from people like you. 
Thank you for this opportunity.

    Senator Blunt. Thank you, Dr. Tucker.
    Ms. King.
STATEMENT OF CAROLINE KING, CHIEF POLICY AND STRATEGY 
            OFFICER, WASHINGTON STEM, SEATTLE, 
            WASHINGTON
    Ms. King. Good morning. My name is Caroline King. Thank you 
for the opportunity to be here. I'm the Chief Policy and 
Strategy Officer for the non-profit, Washington STEM, located 
in Washington State.
    My perspective comes from working with an organization that 
works outside, but alongside our State agencies as an 
innovation partner, and also from my perspective of working 
with employers and educators across our State from tiny 
communities like Wishram with 342 in the population, to our 
urban centers like Seattle and Spokane.
    I would like to touch briefly today on 3 points: first, in 
our State, STEM is an engine for jobs and opportunity; second, 
the crisis we are facing and ensuring that our citizens are 
prepared for those opportunities; and, third, to end on a 
positive note, the solutions that we are driving and the 
solutions that would not be possible without Federal education 
and workforce investments.
    So, first, jobs and opportunity. Washington State is a 
leader in STEM job creation. Companies you hear about on an 
everyday basis: Amazon, the Boeing Company, Starbucks. Also, 
companies like Borton Fruit out in the Yakima Valley, a family 
owned farm who actually now are using drones, technology, to 
help monitor the health of their apple crops. So I did not 
bring this apple with me here today because I thought I might 
need a snack, but I wanted you to see a real high-tech product 
from Washington State.
    All of these employers, large and small, are experiencing a 
challenge. They are starving for STEM talent. There are over 
20,000 open jobs in computing alone today. And as Chairman 
Blunt mentioned, these STEM jobs aren't just plentiful, they 
are well paying, about double the national average. So for 
Washington State, investing in STEM education and training is 
not just the best thing to do for our businesses. It helps our 
citizens get on a path to the middle class.
    Now, the crisis. We are at a breaking point when it comes 
to preparing our Washingtonians for the plentiful jobs in our 
backyards. It starts right away. Students from high poverty 
backgrounds enter kindergarten already behind. Our high school 
graduation rate is hovering just under 80 percent. Our research 
institutions and community colleges are struggling to create 
the capacity to meet employer demands.
    Students of color, veterans, rural communities are at the 
greatest disadvantage connecting to the very dynamic 
opportunities in our economy.
    So finally, the solutions, let's talk about those. I'd like 
to first bring to your attention Apprenti. It's a brand-new 
program funded in part with your leadership from the Federal 
Department of Labor Apprenticeship Grants. This is a critical 
program that is helping to fill those amazing computing jobs 
that are open right now. After a short boot camp tech 
apprentices start working for companies like Microsoft and F5. 
They complete a paid 1 year on the job training experience and 
then they earn certificates in positions that don't require 
traditional degrees, things like database administrators and 
web developers.
    These are life changing opportunities. These are giving our 
veterans, our people of color, disadvantaged populations a leg 
up and an entryway into the middle class and the amazing tech 
jobs in our industries. These would not be possible without the 
apprenticeship grants and the bipartisan support of this 
committee, so thank you for your leadership.
    We also are putting Federal dollars to work for grooming 
the next generation of STEM talent. So right down from the road 
from this high-tech Apple is the Toppenish School District. 
They are using Federal Perkins Funds and State Career and 
Technical Education dollars to create an advanced manufacturing 
pathway around STEM. So starting in seventh grade students can 
start taking classes like pre-engineering, robotics, and, yes, 
coming soon, drone technology.
    Over in Bremerton near our U.S. Naval Base and our ship 
yards is the West Hill STEM Academy, a preschool through eighth 
grade. Seven years ago, before converting to a STEM school, it 
was under enrolled and underperforming, but thanks in parts to 
Title I, Title II, and Head Start funds the school went through 
a complete redesign launching as a STEM school where now 
students are outperforming their peers around the State and 
eight graders graduate with at least four STEM careers that 
they are interested in and they know how to get those jobs.
    So, thank you again for your investments today. Washington 
State is at a breaking point. We are at a turning point where 
we need help in connecting our people to the amazing jobs that 
we are creating, so thank you so much for your leadership to 
date, and I look forward to your questions.
    [The statement follows:]
                  Prepared Statement of Caroline King
    Science, technology, engineering, and math (or STEM) education is 
an engine for economic growth for our country and opportunity for our 
children. My home State of Washington is a prime example. Washington is 
third in the Nation in the creation of STEM jobs (U.S. Chamber of 
Commerce Foundation, 2017). These jobs span every industry and 
geography in Washington. In companies from Amazon to Zulily, software 
engineers program the smart phones in our hands and the satellites in 
our skies. Drone operators monitor the health of crops in Eastern 
Washington and renewable energy engineers dot our landscape with wind 
turbines. Healthcare experts program robots to perform previously 
impossible lifesaving surgeries. Machinists, plumbers, and mechanics--
solid, family-wage jobs--need STEM knowledge to program the machines, 
make complicated measurements, and read codes in automobiles.
    While job creation is at a high, employers from Microsoft in 
Redmond to Matson Fruit in rural Washington starve for STEM talent. A 
2016 report by the Boston Consulting Group and Washington Roundtable 
estimates 740,000 job openings across the State over the next 5 years. 
Over one-third of these are STEM specific jobs. In today's technology 
driven workplace, 100 percent of these jobs require STEM fundamentals 
such as basic computer skills, problem-solving, and data analysis.
    STEM jobs are not just plentiful, they pay well. While the median 
earning of all jobs in Washington is $20.23 per hour, the median 
earnings for STEM jobs in Washington is $42.12 per hour--if you're 
doing your STEM calculations now--that's more than double (Economic 
Modeling Specialists International, 2015). Increasing the number of 
Americans who are STEM educated and trained isn't just the right thing 
to do to help our businesses thrive and grow, it is also the right 
thing to do to put our citizens on a path to family-wage jobs and the 
middle class.
    Washington voters overwhelmingly understand the importance of STEM 
and support increased investment. According to a poll of Washington 
voters in January 2017, 94 percent of Washington voters believe every 
child should have access to a high-quality STEM education. 82 percent 
of voters agree that increased focus on STEM education in Washington 
will improve the State's economy, and 79 percent agree that increased 
focus on STEM education will improve the economy in their specific 
region.
    As a Nation and in Washington State, we are at a crossroads. We're 
falling behind in preparing our youth and adult workers with the STEM 
skills and training they need to secure good jobs. U.S. students are 
outperformed on international tests of core subject knowledge in math 
and 21st century skills such as problem solving. (PISA 2015)
    The production of technical and science/engineering degrees has 
fallen/has not kept pace with the needs of our country's employers. 
Washington's technology companies must recruit their talent outside of 
the United States as our schools are not producing enough homegrown 
talent with needed skills.
    And within that homegrown talent, there's a lack of representation 
of women and people of color. In fact, less women earn computer science 
degrees today than they did 20 years ago. (Solving the Equation, AAUW, 
2015). Training programs like apprenticeships, workforce training, and 
technical degrees need support to rapidly retool and adapt for new 
high-growth industries like advanced manufacturing, technology, and 
healthcare.
    Youth and adults in rural or other underserved communities are at 
an even greater disadvantage. While STEM skills are just as crucial in 
agricultural tech and the maritime industry as they are at Amazon, 
there's limited opportunities for students to prepare and train in 
STEM. In Washington, for example, only 11 percent of students have 
access to computer science education, and many of the students without 
access are in schools not served by broadband or schools without 
educators trained to teach computer science or engineering. Strategic 
investments by our State in partnership with private funders have made 
some positive impact, but overall States struggle to adequately fund 
the STEM education and training needs demanded by our 21st century 
economy.
    Bold and swift actions are needed; Federal investment is a vital 
part of the solution. Our State leaders in Washington, in both public 
and private sectors, recognize the need for a strong STEM education. We 
are fortunate to have demonstrated leadership from Washington State 
Governor Jay Inslee, State Superintendent of Public Instruction Chris 
Reykdal, and Microsoft's President and Chief Legal Officer Brad Smith, 
among others. A strong partnership with the Federal Government is 
crucial to ensure all of our students are prepared for the careers of 
the future.
    When the Federal Government invests in STEM education and workforce 
training in Washington, these funds make an impact far beyond the 
dollars themselves.
    Federal funds are catalytic.
    Strategic Federal investments have helped jumpstart the creation of 
innovative new programs that accelerate the pace at which 
Washingtonians get trained for the good paying job available in our 
State.
    Federal funds have encouraged leverage and coordination of funds 
among State, local, philanthropy, and business investors. Again, these 
investments accelerate the pace, impact, and return on dollars spent 
for all investors, and, most importantly, they increase opportunity for 
our students.
    Federal funds increase access to STEM education for rural and 
underserved communities. Rural communities often struggle to find 
private investment partners, particularly in economically depressed 
areas of our State. Federal funds provide the spark needed to make 
State and local dollars go further.
    Federal funds work across all areas of education--from early 
learning to K-12 to post high school career training. The following 
examples demonstrate the unique and significant role Federal funds play 
in educating and training Washington's future workforce.
Example I: Federal Funds Support Early Learning and Elementary STEM 
        Education in Bremerton, Washington
    Federal funding supports early learning and elementary STEM 
education in many communities in Washington. One strong example of 
Federal dollars making a difference to students receiving STEM 
education can be seen at West Hills STEM Academy in Bremerton, 
Washington.
    Bremerton, Washington is a port town a one-hour ferry ride from 
Seattle, Washington. Their economy is fueled by the Navy shipyard, 
where many of our military's ships undergo repairs and upgrades. West 
Hills STEM Academy is a public pre-Kindergarten to eighth grade school 
hosting special education pre-K and Head Start programs and is located 
in West Bremerton, a working class neighborhood in a working class 
town.
    Prior to conversion to a STEM school in 2011, West Hills was 
perceived by many in the community as one of the least desirable 
schools to attend in the area. Now that it has been converted to a STEM 
school, West Hills STEM Academy has some of the most innovative 
programs in the State and its students outperform their peers in math, 
science, and the English language arts.
    This conversion to a STEM school happened in part with Federal 
funds, including Title I funding to support the complete redesign and 
ongoing implementation of the program. The funds helped 630 students, 
50 percent of whom are students of color and 75 percent of whom live in 
poverty, get access and a comprehensive 21st century skill set in their 
own neighborhood school. Thanks to Title I funding, the school engages 
in professional development and additional academic support for 
students. It's a great example of a school using Title I funding 
flexibly to design and support a high impact STEM education program.
    Students who are part of the program from pre-K to eighth grade 
participate in daily, integrated, researched-based STEM instruction. In 
third through eighth grade, students leave the site monthly for STEM 
field experiences, and in middle school levels, students engage in 
career technical education learning focused on STEM education.
    West Hills STEM was recently granted a $1.5 million DoDEA grant to 
spread STEM education to K-8 schools throughout the district based on 
lessons learned at West Hills STEM Academy. Title I funds made this 
scaling up possible.
    The Head Start program housed at West Hills STEM Academy is fully 
integrated with the Bremerton School District special education pre-K 
STEM program. Educators in Head Start collaborate with West Hills STEM 
Academy STEM instructors to receive professional development, team 
based instruction, and shared special events and assemblies focused on 
STEM education. Head Start classes are also able to leverage 
opportunities through an early learning STEM program funded by The 
Boeing Company, which created early learning STEM units in which over 
800 children across the district currently participate.
Example II: Perkins Grant Connects Rural High School Students to the 
        New Economy
    Federal funds also support STEM education on the middle and high 
school levels. The Toppenish School District serves over 4,000 
students--97 percent of them students of color--in a rural area in 
South Central Washington.
    Federal Perkins funds have allowed Toppenish to engage students in 
daily STEM educational opportunities through middle and high school 
core academic and career technical education programs. Thanks to 
Perkins funds, Toppenish offers all facets of the STEM Engineering/
Career Integrated Manufacturing pathway. Toppenish middle school 
students are able to take several pre-engineering and computer science 
courses, which include Energy and the Environment and Robotics and 
Animation, as part of their core academic experience in seventh and 
eighth grade.
    At the high school, the updated computers and engineering equipment 
have also allowed Toppenish to offer college level courses. Seniors can 
qualify for up to 12 articulated college credits. Through this STEM 
engineering program, students are learning to design and build, but 
they are also taught to reverse engineer, troubleshoot, and then 
rebuild. This school year, Toppenish is developing courses to add Drone 
Technology/Advanced Robotics, including Computer Science Programming, 
into the STEM Engineering/Computer Integrated Manufacturing pathway. 
This could not be done without the purchase of the computer technology.
    Toppenish School District's Perkins Funds go a long way to increase 
opportunities for rural students in the courses most relevant to local 
future careers.
Example III: Federal Funding Develops New Programs Tailored to the 
        Needs of STEM Employers and Students
    In addition to support for these educational opportunities, Federal 
funds have allowed Washington State to develop and grow new programs 
directly suited to the STEM needs of employers in our State. 
Specifically, Federal investments in Washington have developed the 
first large-scale technology industry apprenticeship in the Nation. 
Federal funds have also enabled the creation of Washington State's 
first registered youth apprenticeship for high school students.
    In 2015, a $5 million grant from the Federal Department of Labor 
catalyzed the development of registered apprentices in the information 
technology (IT) industry with a focus on women, minorities, and 
veterans. The State partnered with the Washington Technology Industry 
Association to develop an innovative program--called Apprenti--which is 
establishing apprenticeships in several high-demand IT fields. These 
apprenticeships offer a pathway for tech employers to attract and train 
diverse non-traditional candidates to their ranks. Washington State and 
private industries have provided critical supports and supplemental 
funding.
    The goal over the next 4 years is to train over 600 registered IT 
apprentices in the State of Washington. That's 600 Washington residents 
prepared to meet the needs of industry. And Apprenti is quickly 
becoming a best-in-class model for the country. The Federal Department 
of Labor recently awarded a $7.5M expansion grant to take the Apprenti 
model to other States.
    Federal funds from the Department of Labor also helped our State 
launch youth apprenticeships for 16 and 17 year olds. This means young 
people in our State can get key on-the-job experience and training that 
will lead to family wage careers before they have even left high 
school. One of the first programs launched with this funding is an 
Aerospace apprenticeship program. The Aerospace Joint Apprenticeship 
Committee--or AJAC--is partnering with Tacoma Public Schools to train 
high school students as Manufacturing Production Technicians. As of 
this month, AJAC has registered their first cohort of 15 students, 
linking them with structured, paid, on-the-job training and related 
classroom/lab training over a 2000-hour term of apprenticeship. A 
second cohort will launch in Yakima soon. The goal is for ten 
registered youth apprenticeships cohorts to be launched by next year.
    These examples are just a few of many that demonstrate the positive 
impact Federal funding makes across the State. Other key Federal 
programs include the 21st Century Community Learning Center program 
which supports out-of-school, hands-on learning in programs ranging 
from environmental science to robotics, as well as funding for ANEW, 
which supports young women preparing for welding apprenticeships. In 
all of these cases, Federal funding increases access for our State's 
students and prepares them with the skills they need to excel in 21st 
century jobs.
    Federal Investment in STEM Education Creates A Positive Impact for 
Students and Washington State
    Recent Federal laws, such as the Every Student Succeeds Act (ESSA) 
and the Workforce Innovation and Opportunity Act, give States and local 
districts the flexibility to design effective STEM education and 
workforce training programs and deliver outcomes that are appropriate 
for our States and communities.
    Washington STEM has committed to support the Washington State 
Superintendent of Public Instruction in the development of our State's 
plan to implement ESSA. We believe STEM is critical to deliver on the 
goals of ESSA--ensuring students of every zip code receive a well-
rounded education that prepares them for full participation and success 
in our economy and democracy. We have strongly encouraged the State to 
prioritize the use of Title I and IV funds to increase students' 
equitable access to STEM courses, experiences, and career pathways, and 
Title II funds to support teachers with the professional learning they 
need and deserve to provide cutting edge STEM education.
    In Washington State, the appropriate outcomes are those that will 
drive the continued growth of our economy as well as allow our State's 
students to be prepared for the good paying jobs created in our 
economy. If our economy does well, but a Washingtonian does not have 
the skills to find a job, we've failed.
    Now more than ever, we need Federal investment to support and 
encourage bold and swift action at the State level. Your investments in 
our State have driven and will continue to drive Washington's children 
to great, family-wage jobs. We encourage you to continue and increase 
Federal investments in public education and workforce training --such 
as the Title I and IV, Perkins, and Department of Labor grants I've 
discussed today--and to explore new areas Federal investment can 
accelerate results, such as dedicated funding for K-12 computer 
science.
    States like Washington need the Federal Government's partnership. 
Federal investments help drive equity; leverage private, State and 
local funds; and catalyze the innovative and large scale STEM solutions 
our employers demand and our youth and adult workers need to thrive in 
the middle class.
    Thank you.

    Senator Blunt. Thank you, Ms. King.
    Mr. Plank.
STATEMENT OF LARRY PLANK, ED.S., DIRECTOR, K-12 
            SCIENCE, TECHNOLOGY, ENGINEERING & 
            MATHEMATICS EDUCATION, HILLSBOROUGH COUNTY 
            PUBLIC SCHOOLS, TAMPA, FLORIDA
    Mr. Plank. Thank you. Thank you, Chairman Blunt, Ranking 
Member Murray, and honorable members of the committee. It is my 
pleasure to be here today to speak to you about the importance 
of science, technology, engineering, and mathematics education 
and how success in STEM is directly connected to economic 
drivers in financial stability for our communities and Nation. 
Facing a growing economy that is growing ever more 
technologically-based, a national need for STEM literate 
citizens has arisen.
    As a director for K-12 STEM education in Hillsborough 
County Public Schools, I am responsible for not only supporting 
the academic endeavors of our community's children, but also 
responsible for teacher professional development and 
appropriate theming of our magnet school and career and 
technology education academies so that they are best connected 
to workforce needs of the greater Tampa Bay region.
    My district has over 250 school sites and over 213,000 
students and it's a microcosm of the Nation, from core urban 
areas in inner city Tampa, to the suburbs of Brandon and Tampa 
Palms, to the rural areas of Plant City where we grow high tech 
strawberries, they all have unique challenges. It is very true 
that no matter whether we are speaking about the Federal 
Government or a family of four, the places and spaces where you 
spend your time, talent, and treasure are indicative of what's 
important to you. For that reason, I will share a few excerpts 
of my past four weeks of work.
    Just over a month ago the District welcomed Erika Bergman, 
National Geographic explorer to Tampa. Erika is an underwater 
submarine pilot and she spent 4 days working with 30 of our 
female students and teachers building underwater ROVs from 
scratch. This included welding and soldering. With the help of 
the Florida Aquarium, we launched all five of those ROVs in 
Tampa Bay cheered on by the families of each of these girls 
from Title I schools. Our hope is that by starting young and 
making STEM relevant and accessible to underrepresented groups 
in STEM such as women and people of color, we can strengthen 
our STEM workforce in Tampa Bay and in Florida.
    At the conclusion of that camp, the Hillsborough Regional 
STEM Fair welcomed over 2,100 students representing 1,700 STEM 
projects to the Tampa Bay Convention Center. These projects 
highlighted the innovation, creativity, and the artistic 
ability of all of our students. This fair isn't a typical fair, 
however. Most of the student projects completed during the 
school day are on inquiry Mondays, time set aside for 
elementary students to tackle grand challenges in Tampa Bay 
through engineering and design challenges that are based in 3-
dimensional learning and the framework for science education. 
The nearly 600 volunteer judges leave the experience excited 
about the future of our region and country.
    Later that month, 4 of our female students sent an 
experiment upon the SpaceX Falcon 9 Dragon or Rocket and Dragon 
cargo carrier from the Kennedy Space Center. The experiment 
will explore how quinoa seeds germinate in microgravity and 
will be conducted by astronauts at the International Space 
Station.
    After this successful launch, we turned our attention to 
STEM Family Night to be held at the Glazer's Children's Museum. 
These nights are vehicle to drive programming for and parental 
support of early learning and STEM for our community's youngest 
kids. Research tells us that prior to entering kindergarten 
differences in experiences lead to deep gaps in skills amongst 
these children, particularly in numeracy and literacy skills. 
Unless these gaps are addressed, we will not see the gains we 
hope to experience in STEM education.
    After this, we held a STEM day at MacDill Air Force Base. 
This STEM day highlighted the importance of science and 
technology in our military and the many jobs of the people that 
keep our country safe. From cybersecurity to countering 
bioterrorism, over 1,200 students were able to see themselves 
in the place of these brave young women and men.
    There were many, many more events during the past four 
weeks and I will refrain from sharing those with you in respect 
of time. But in an effort to build a successful STEM program 
for our region, we have identified four elements of our work 
which are all supported like these activities and events that I 
have shared through Federal funding streams. In some cases, 
these forms are in the form of Title dollars, in others, 
competitive grants through the Department of Education or 
Federal Agencies such as NASA and NOAA. The braiding of these 
funds has allowed us to efficiently and effectively support 
STEM education in our workforce.
    There is much to be done, however, so please consider our 
ask. When Congress reauthorized the Every Student Succeeds Act, 
they eliminated the Math and Science Partnership program and 
instead opted to consolidate this program and other competitive 
grant programs into a single formula-funded, flexible block 
grant known as Title IVA, the Student Support and Academic 
Enhancement Grants.
    I applaud the fact that the Federal law now gives district 
leaders like myself more flexibility in choosing programs that 
will best fit the needs of our schools, but as Hillsborough and 
thousands of districts nationwide prepare to implement the 
Federal education law we must be able to rely on the Federal 
funding levels that Congress authorized in ESSA if we want to 
see this law succeed. So I'm asking you, members of this Senate 
Appropriations Committee, support full funding of ESSA Title IV 
Student Support and Academic Enhancement Grants at the 
authorized level of $1.6 billion.
    If appropriated at the full level, SSAE (Student Success 
and Academic Enrichment) will also fund safe and healthy 
student activities including: student mental health and 
services; allow students to have more access to accelerated 
learning courses; provide more courses in physical education, 
art, music, foreign languages, and college and career 
counseling; support the effective use of technology through 
professional development, and access to technology and digital 
materials for all students.
    I am concerned, however, and I know that many of you have 
heard from your constituents, that diminished funding for Title 
IV grants would force many school districts to choose between 
needed programs that can positively impact students. Tough 
funding decisions must be made in this budget, but underfunding 
ESSA Title IV is in direct opposition to Congress' intent to 
provide greater flexibility for districts and schools.
    I began my comments today by stating that the places we 
spend our time, talent, and treasure are indicative of what is 
important to us. The bipartisan Every Student Succeeds Act 
would provide schools with the flexible resources they need to 
support a wide range of activities like science, technology, 
engineering, and math competitions, hands-on learning, and 
bringing high quality STEM courses--including computer 
science--to high need schools. The subcommittee funding level 
last year was far below the authorized ESSA appropriation and 
we would like to see this funding level increased. I look 
forward to your questions and I thank you for your time.
    [The statement follows:]
                   Prepared Statement of Larry Plank
    Chairman Blunt, Ranking Member Murray and members of the Committee, 
it is my pleasure and honor to be here today to speak with you about 
the importance that the Federal Government plays in STEM education. As 
the Director for K-12 STEM Education in Hillsborough County Public 
Schools, I am responsible for not only supporting the academic 
endeavors of our community's children, but also responsible for teacher 
professional development and the appropriate theming of our magnet 
schools and career and technology education academies so that they are 
best connected to the workforce needs of the greater Tampa Bay region.
    Facing a global economy growing ever more technologically-based, a 
national need for STEM-literate citizens has arisen. As a national 
leader in education, Hillsborough County Public Schools is well 
positioned to answer this call through our comprehensive STEM education 
program. Hillsborough County Public Schools is the eighth largest 
school district in the Nation. With over 250 school sites and over 
213,000 students, our district is a microcosm of the Nation, from core 
urban areas in inner-city Tampa, to the suburbs of Brandon and Tampa 
Palms, to the rural areas of Plant City--all with unique challenges.
    We pride ourselves upon preparing and inspiring the next generation 
of STEM-literate citizens who will directly contribute to the STEM 
fields through the workforce or post-secondary education. While many 
STEM initiatives prepare only some students for success in STEM fields, 
it is important to us and our community that all students have 
equitable experiences and access to STEM opportunities. My role in 
Hillsborough has been to ensure that every student has an opportunity 
to enjoy science, technology, engineering, and mathematics in a highly 
supportive setting that encourages and fosters their own creativity, 
innovation and perseverance.
    In an effort to build a successful STEM program for our region, 
we've identified four elements of the work, all supported in part by 
Federal funding streams. In some cases these funds are in the form of 
Title dollars, in others competitive grants through the Department of 
Education or Federal Agencies such as NASA and NOAA. The braiding of 
funds has allowed us to efficiently and effectively support STEM 
education and workforce development in our region.
    These elements support our work, which includes (1) improving 
instructional practices in mathematics, science and STEM-related course 
at all grade levels to increase student achievement, (2) connecting 
student learning in the classroom to careers for the 21st century in an 
effort for students to experience their future, (3) building 
relationships in the community that positively impact student 
achievement in and appreciation for STEM, and (4) supporting STEM 
learning and achievement across multiple settings and environments that 
afford students the opportunity to apply what they have learned.
Essential Element 1: Curriculum Innovations that Support 21st Century 
        Skills and STEM Learning
    Curriculum innovations consist of changes to the standard 
curriculum, associated instructional practices and district protocol 
that promote STEM programs and understanding and support learning in 
STEM subjects. At the center of this effort lies professional learning 
for teachers--from professional learning experiences to on the job 
support through academic coaching and modeling--all to support 
innovative practice and content standards that define the integrative 
STEM approach to curriculum.
            Example of Success: Department of Education Math/Science 
                    Partnership Project: AMP STEM
    The Accelerating Maximum Potential in STEM (Mathematics and Science 
Partnership) was funded by the US and Florida Departments of Education 
to provide professional development to K-12 STEM teachers and support 
integrative STEM practices in K-8 classrooms. Our award amount is 
$4,500,000 for 3 years, and through this grant project we will provide 
nearly 50,000 hours of professional development and create, pilot and 
publish over 48 integrative, STEM-centric lessons for elementary and 
middle grades to be shared with the State of Florida. In addition, the 
grant also assists us in preparing teachers for certification 
examinations in hard to certify areas, such as 6-12 Mathematics, 6-12 
Chemistry and 6-12 Physics.
            Example of Success: Title I Funding to Create Equitable 
                    Experiences for 
                    Students
    Hillsborough also utilizes Title I funds to create equitable 
learning experiences in our Title I schools. Over 63 percent of our 
students qualify for free and reduced lunch, and the district has a 
majority of schools that receive Title I funding. While these dollars 
support a wide range of services for our schools, in the STEM arena we 
utilize the funds to support academic coaches in mathematics, science 
and STEM as well as additional training for our teachers. In science 
and STEM laboratories and classrooms, we have purchased state-of-the-
art learning tools and technologies, and in mathematics classrooms 
virtual and hands-on manipulatives to support rigorous content and 
practice standards.
            Example of Success: Tampa Bay Master Teacher Fellows 
                    Program
    The Tampa Bay Master Teacher Fellows program is a competitive grant 
funded in part by the National Science Foundation to support twenty 
teacher-leaders in grades 6-12 who serve as district liaisons for new 
teacher induction, inservice teacher professional development, 
preservice teacher education and curriculum design and revision. The 
award amount is $1,300,000 over 5 years.
Essential Element 2: Establishing Career Pathways that Support 
        Employment in STEM Fields
    According to the STEM Education Coalition--which is chaired by the 
National Science Teachers Association--the average wage for all STEM 
occupations is nearly double the average for all occupations. However, 
the importance of preparing children with basic STEM skills is about 
more than economics. In today's economy every student needs to have a 
strong foundation in the STEM subjects in order to land and succeed in 
virtually any job--from the shop floor to the research lab to the 
boardroom. And every citizen needs STEM skills to participate 
knowledgeably in our democracy where so many opportunities and 
challenges come from advances in science and technology.
    While the Nation struggles with a high level of unemployment, 
thousands of positions that require skills related to STEM are 
unfilled, costing the US economy billions of dollars. The same can be 
said for greater Tampa Bay. In response, our district has continued to 
finely tune traditional programs in Career and Technical Education 
(CTE) to address the needs of the Nation and serve the community of 
students to whom we are responsible.
            Example of Success: Magnet Schools supported by Magnet 
                    Schools of America and Grant Opportunities
    Hillsborough County Public Schools has a high number of magnet 
choice opportunities for students, ranging from the performing arts to 
biomedical science to aerospace and engineering. Magnet schools can be 
found in all grade levels: elementary, middle and high. Competitive 
grant dollars have been utilized to create a template for each school 
site, after which the district has maintained the programs. These seed 
funds are utilized to write curriculum, create school content, support 
teacher professional development and the unique tools for learning that 
a school may need to meet a magnet mission. A list of HCPS STEM schools 
is included in the supporting documents.
            Example of Success: Perkins Funding
    While the level of funding under Perkins has diminished our 
district continues to use this funding stream to establish programs of 
study that foster growth and understanding of relevant STEM content. We 
do this by incorporating instructional models from mainstream 
curriculum, such as inquiry-based experiences and engineering/design 
challenges and strengthening connections to local industry with 
technology-based workforce agreements, and finally by adopting best 
practices through Career Academy models. Perkins funding supports the 
professional development of teachers, field experiences, and tools of 
the trade in high-tech STEM learning environments.
Essential Element 3: Fostering Community Relationships that Support 
        STEM 
        Learning
    Many school districts are concerned with making connections to the 
home to ensure parental support for students in the educational 
process. Research suggests that practices which garner parental support 
result in student learning gains and success throughout the K-12 
system. However, establishing parental connections with STEM-related 
programs is more difficult than in other areas due to parents' 
inadequacies in STEM understanding or familiarity.
    In addition to parents, supports from academic, business and 
community (the ABCs of STEM) partners are more essential to STEM 
programs since public schools rely upon these institutions for 
innovations within the STEM fields, financial supports and academic 
supports.
    Research from the National Academies suggests the community-based 
ecosystem approach to STEM education has merit and should be further 
explored. Recently, organizations such as the Teaching Institute for 
Excellence in STEM and the National Science Foundation have supported 
such ecosystems through grant opportunities. The NSF INCUDES and STEM-C 
solicitations both include language regarding the building of community 
support from multiple sectors in their request for proposals.
            Example of Success: Tampa Bay STEM Network
    Tampa Bay STEM Network was born in 2016 and is funded in part by 
the STEM Funders Network, Samueli Foundation and Teaching Institute for 
Excellence in STEM to develop a supportive network of collaborating 
partners in STEM education in the Tampa Bay region. Locally over 25 
academic, business and community partners have committed to this call.
Essential Element 4: Value-Added and Non-traditional Programs that 
        Support STEM Learning
    Research suggests that much of what students learn in STEM 
disciplines, especially science, occurs through discovery and exposure 
to content outside of the typical classroom. This learning can occur 
through self-guided exploration, experiences at informal science 
institutions, as well as through a variety of media.
    In addition, States and districts must utilize value-added 
programs, such as after school extended learning programs, Saturday 
school, competitions, fairs and other community events to bring content 
to life for students. The STEM disciplines present an opportunity for 
non-traditional and value-added measures, yet many school systems fail 
to make these connections.
            Example of Success: 100Kin10's Early Childhood STEM 
                    Learning Project
    In 2013, 100Kin10 announced $2 million in funding for a competitive 
opportunity for partners to propose ``moonshot'' ideas that will help 
support the creation of active STEM learning environments in grades P-3 
in schools across the country. Focused upon teacher effectiveness and 
encouraging experimentation, this opportunity is intended launch great 
solutions to the root causes of this overarching challenge in STEM 
education.
    There is much more to be done, however, so please consider our 
``ask''.
    When Congress reauthorized the Every Student Succeeds Act, they 
eliminated the Math Science Partnership program and instead opted to 
consolidate this program, and other competitive grant programs, into a 
single, formula-funded, flexible block grant, now known as Title IVA, 
Student Support and Academic Enhancement Grants (SSAE).
    I applaud the fact that the new Federal law now gives district 
leaders more flexibility in choosing programs that will best fit the 
specific needs of our schools. But as Hillsborough and thousands of 
districts nationwide prepare to implement the new Federal education 
law, we must be able to rely on the Federal funding levels that 
Congress authorized in ESSA if we want to see this law succeed.
    I am asking that you, members of the Senate Appropriations 
Committee, support full funding of the ESSA Title IV Student Support 
and Academic Enhancement Grants at the authorized level of $1.65 
billion. I would also hope that your Committee will also make clear 
that this program will continue as authorized by Congress as you 
resolve the current Continuing Resolution for this fiscal year.
    Districts could choose where best to spend their SSAE grant dollars 
in order to help all students develop the skills essential for learning 
readiness and academic success. Title IV SSAE funds would allow high 
need districts to promote hands on STEM learning, develop and provide 
more computer science courses, create STEM specialty schools, and 
integrate informal and formal STEM programs.
    SSAE will also fund safe and healthy student activities, including 
student mental health services; allow students to have more access to 
accelerated learning courses; provide for more courses in physical 
education, art, music, foreign languages, and college and career 
counseling; and support the effective use of technology through 
professional development, and access to technology and digital 
materials.
    I am concerned, and I know many of you have heard from your 
constituents, that diminished funding for the Title IVA SSAE grant 
would force many school districts to choose between badly needed 
programs that can positively impact students. Tough funding decisions 
must be made in this budget, but under funding ESSA Title IVA is in 
direct opposition to Congress's intent to provide greater flexibility 
for districts and schools.
    In addition to supporting Title IV, the committee should also 
consider the highest possible level of funding for ESSA Title II 
Supporting Effective Instruction State grants. This program provides 
support for teacher quality improvement initiatives, including 
professional development and teacher leadership, and provides States 
with flexibility in addressing STEM-specific challenges in this area.
    We would also like to see the highest possible funding level 
provided for Title IV Part B (21st CCLC). New language in ESSA allows 
21st CCLC to fund high-quality STEM programming in afterschool and 
summer learning programs.
    I would also like to encourage you to work with you colleagues to 
support the highest possible funding level for the National Science 
Foundation's Education and Human Resources (EHR) Directorate. This 
funding supports discovery and innovation at the frontiers of STEM 
learning and teaching, supports the testing, assessment, study and 
evaluation of highly innovative models and approaches to learning, and 
fosters linkages between STEM education research and practice that 
improve the effectiveness of programs across the Federal Government and 
at the State level.
    Funding for NOAA education programs should also be continued. NOAA 
is mandated to support and coordinate educational activities to enhance 
public awareness and understanding of ocean-related issues. NOAA 
education activities are authorized under the America COMPETES Act, 
which obligates NOAA to carry out science, technology, engineering, and 
math (STEM) activities to improve interest and literacy in STEM 
subjects.
    The Bay-Watershed Education and Training (B-WET) and competitive 
education grants (also called Environmental Literacy Grants or ELG) 
should be funded in the total amount of $20 million in the fiscal year 
2018 appropriations bill. Funding B-WET at $12 million would enable 
NOAA to resume operation of all seven of the regional B-WET programs 
which impact a total of 27 States and the District of Columbia. Funding 
the ELG program at $8 million would return it to a robust level of 
grant-making and national impact.
    In closing, I would simply state that if we are to keep up with our 
global competitors, we had better step up our commitment to improving 
STEM education and increasing opportunities to access innovative STEM 
education programs both in and out-of-school.
    Excellence in STEM should be embraced as a bedrock element in 
conquering the challenges of today and tomorrow, including modernizing 
our infrastructure, improving healthcare, defending the homeland, and 
fostering future industries. I feel strongly that action on STEM 
education policy should match the rhetoric on its importance.
    The bipartisan Every Student Succeeds Act would provide schools 
with the flexible resources they need to support wide range of 
activities like science, technology, engineering, and math 
competitions, hands-on learning, and bringing high-quality STEM 
courses--including computer science--to high-need schools. The 
Subcommittee funding level last year was far below the level authorized 
under ESSA and we would like to see this funding level increased. I 
look forward to your questions.
    [Attachments follow:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Blunt. All right. Thank you, Mr. Plank. We will 
start with a 5-minute round of questions and I am sure there 
will be time for a second round if anybody wants to ask more 
than their first five minutes of their questions.

                  SCIENCE EDUCATION PARTNERSHIP AWARD

    Dr. Lamb, I am going to ask you about a couple of different 
programs that we fund and the impact they have. First, you 
specifically receive funding from the NIH through the Science 
Education Partnership Award. Would you talk a little bit about 
how you use that and particularly how you may use it to 
encourage people to look at medical research and health 
research.
    Dr. Lamb. I would be happy to. Thank you for that 
opportunity. The Science Education Partnership Award is the 
only K-12 program, education program, out of NIH. And it is 
focused specifically on connecting biomedical researchers to 
teachers, schools, museums, and informal science centers to 
take the research that's going on at the NIH and to use that, 
translate that into what does that mean in the everyday world 
of a student, how do we connect what happens in the biomedical 
research field to what you experience at home.
    So for our specific project, Touching Triton, that was the 
20-year space mission looking at how we take what NIH, what 
researchers are doing in genomics, and how we translate that 
into something that students can apply to their real world. I 
think at last week's committee every single one of the 
witnesses spoke about the importance of continued funding for 
NIH, especially in genomics and precision medicine.
    The Science Education Partnership Award is often a 
student's first inkling of what this field of research actually 
looks like, how it affects their life, and the types of careers 
that are available for them as the next generation of 
researcher.
    SEPA (Science Education Partnership Awards) is one of the 
most rigorously evaluated of the education programs out there 
and it has a budget that's less than one-tenth of 1 percent of 
the total NIH budget. It is one of the most amazing programs 
that I have ever been part of and the return on that investment 
is incredible in terms of helping students see how does 
biomedical research apply to my life, especially students that 
might not traditionally have had those experiences in 
underrepresented populations, and what kind of careers could I 
consider in that field.
    Senator Blunt. Good. The Science Education Partnership 
Awards, which I think is designed to develop new content. I am 
pretty sure it's hard for science textbooks to keep up with 
what is actually happening out there. Talk about that a little 
bit.
    Dr. Lamb. It is a challenge. The field, especially in 
genomics, changes continually and it's very difficult for 
textbooks to keep up and many educators often feel that they 
are unable to get their students access to the newest 
information. So one of the things that we do at HudsonAlpha to 
try to remedy that, every year I create what's called the 
annual guidebook. And the guidebook, actually, my team looks at 
several hundred science articles that have been written and 
identify the 50 or so that are most relevant to a high school 
biology class or a health class or a career tech class. And 
we----
    Senator Blunt. And you try to develop that into a work plan 
for a teacher or just----
    Dr. Lamb. We do. We write jargon free explanations of the 
research, what is the new finding, why is it important, and we 
tie that to where in your curriculum would you be talking about 
this. So if you are teaching an agriscience class, a career 
tech agriscience class, what are the new things that are 
happening in the field of genome editing that tie to that, so a 
teacher can use the newest research less than a year old to 
bring their students up to date, things that are far too new 
for their textbooks.

                           RETAINING TEACHERS

    Senator Blunt. Thank you. Mr. Plank, how hard is it to get 
and keep the teachers in this field?
    Mr. Plank. In our district, we have about 200 new math and 
science teachers in middle and high school that we must hire 
each year. It is very difficult for us as a school district to 
do that. Our local college, the University of South Florida, 
does not turn out that many science and STEM teachers 
obviously, so we have multiple programs in place that are 
partnership programs--some are funded through the National 
Science Foundation--to work with students who are just 
graduating from college with STEM degrees so that they can 
become better teachers or become or matriculate into the 
teaching profession. We also work with change of career folks 
within our own district, but we do have a deficit in creating 
STEM teachers through colleges of education.
    Senator Blunt. I assume if you have that hard a time 
getting them, you have equally a hard time keeping them.
    Mr. Plank. Yes. Retention rates are also not where we would 
like them to be. In our district, as is representative of 
Florida, the retention rates for STEM teachers are much lower 
than other content areas. We have found though that offering 
bonuses, signing bonuses, isn't a solution and that it is 
actually professional development and support that keeps these 
teachers in the classroom.
    Hillsborough County and Polk County in Florida were 
recipients of a $4.5 million Math Science Partnership Grant 
through the Department of Education in which we are working to 
establish protocols within the district for not only certifying 
more teachers in hard to certify areas such as chemistry, 
physics, and grades 6 through 12 mathematics so that we can 
offer courses like calculus at every single one of our 27 high 
schools, but also provide them with the tools that they need.
    So we are creating curriculum. We are also providing over 
50,000 hours of professional development through that project 
so that teachers better understand the new tools that are 
available to them.
    Senator Blunt. All right. I better stick with my own 
timeframe here. Senator Murray.
    Senator Murray. Thank you very much.

                          STUDENT ACHIEVEMENT

    Ms. King, at $15 billion in annual funding, Title I is 
actually the largest source of Federal aid for elementary and 
secondary education intended to provide extra help to students 
from low income families. Some, including our new Secretary of 
Education, have suggested we are spending a lot on our public 
schools for stagnant and unacceptable results, including in 
math and science. Nobody is satisfied with the outcomes, 
particularly for populations that are the focus of Federal 
legislation like ESSA and IDEA.
    Give me your local perspective on this issue. What are the 
top challenges in and out of school to raising student 
achievement in STEM?
    Ms. King. Thank you. I think in terms of in school, Larry 
was hitting on a key one in terms of professional development. 
We see that STEM fields are areas typically where our early 
childhood educators and elementary teachers often do not have 
the content backgrounds walking in the door. So, again, we have 
rapidly changing fields from an industry standpoint. And 
ensuring that our teachers are exposed to that cutting-edge 
experience and able to bring it back to the classroom is 
critical.
    I know personally I have seen examples, and I believe the 
last time I was with you out in Washington State, we had the 
opportunity to meet with a kindergarten teacher from a Title I 
school in Bellevue and we were talking about computer science. 
And I remember you asked a great question, ``What does computer 
science look like in a kindergarten classroom?'' And so what 
the teacher does to start to expose her young kindergartners to 
the fundamentals of coding is she has the kids program her to 
dance. So there is no computer or tablet involved in this 
stage. It is as the kids are programming her, they can't just 
tell her to dance. They have to tell her the logical sequence 
and the steps. So make my right hand move, make my left hand go 
out, those kinds of things.
    I have also, in the West Hills STEM School that I mentioned 
in my testimony, which is a preschool through eighth school, 
they are leveraging Title I and Head Start funds to expose 
their preschool students, again, using the books that are 
typically found in preschools throughout our State and region 
and also the books that are used in home visiting programs for 
families.
    So it gives parents the opportunity and early childhood 
educators to use tools that they are comfortable with, these 
early reader books, and find the examples where teachers and 
parents can interweave examples about math. So it is teacher 
training, it's parent involvement and support, and also 
inspiration and engagement out of school.

                         ACCESS TO STEM CLASSES

    Senator Murray. Okay. And like I mentioned earlier, there 
are big differences in student access to advanced coursework in 
STEM subjects. In fact, just 192 low income students took the 
AP computer science exam last year in Washington State. What 
are we doing to improve access to the advanced classes students 
need to be successful in college and careers?
    Ms. King. Yes. It's a critical issue. I know looking at 
that same AP computer science, just by all the tech jobs we 
have less than ten African Americans passed that AP computer 
science test in our State, so it is unacceptable. What we are 
doing about it is working very closely with our district 
partners to help ensure that they have the support they need to 
introduce those rigorous classes. I think we are also on the 
leading edge of innovating around where CTE, career and 
technical education courses, can also cross credit with AP and 
other rigorous courses so that students don't have to choose 
between hands on and minds on. It is really about getting kids 
ready and exposed for the exciting careers and success in post-
secondary.

                           WORKFORCE TRAINING

    Senator Murray. Okay. And you talked about the West Hills 
STEM Academy in Bermington, which is really great, knowing the 
importance of teacher development and providing quality early 
education. This subcommittee actually provides significant 
investments in workforce training. In fact, a majority of the 
State administered professional development in Washington State 
is funded with either direct or leveraged Federal funds. How 
essential is quality workforce training in developing young 
learners' skills in STEM?
    Ms. King. The workforce, for the educator workforce?
    Senator Murray. The teachers.
    Ms. King. Yes, the teachers. It's imperative. Again, as I 
mentioned, many early childhood or elementary teachers, this is 
not their area of expertise, so it's ongoing and targeted 
professional development that is critical. We work closely with 
the State agencies to help design what those offerings look 
like. So something like next generation science standards, 
which we have now introduced as engineering for the first time 
in our K-8 classrooms that is an area where we are innovating. 
We started an engineering fellows program which pairs 
elementary teachers with practicing engineers. The teachers get 
exposed to what engineering is and they walk away with real 
hands-on lessons that they can bring back to their classrooms. 
So those types of experiences, getting them exposed to industry 
and getting the job embedded, frequent coaching that it 
supports them to implement on a regular basis is imperative.
    Senator Murray. Okay. Thank you very much. My time is up, 
so.
    Senator Blunt. Senator Capito.

                     CAREER AND TECHNICAL EDUCATION

    Senator Capito. Thank you, Mr. Chairman, and thank all of 
you for being here today. The topic is, I think, very timely 
and very important because of the promise that STEM education 
holds, not just for a stronger economy and job opportunities, 
but for the health and wellbeing of those, our neighbors in all 
of our States.
    I am really happy to have Dr. Sarah Tucker here at my 
invitation. She is one of the leaders in our State, and so 
thank you very much, Dr. Tucker, for coming. She is very 
committed to finding creative solutions that many of you all 
have talked about in your individual States with limited 
budgets and challenging infrastructure.
    This committee stepped up last year by providing $19 
million in last year's Omnibus Bill to help displaced coal 
workers with job training and development. Dr. Tucker mentions 
that in her full written statement, and so I thank her for the 
innovation that she has done to try to get those folks back to 
work in similar fields, but not exactly the same fields.
    She did talk about the Toyota and BridgeValley Community 
College collaboration. And I was very honored last year to go 
with the President of Toyota West Virginia to Winfield Middle 
School where we did a young women and manufacturing 
presentation. And I think the young ladies in the crowd were 
really astounded to hear that, oh, this is really technical and 
this is really math and this is really fun.
    So I think when you said, Dr. Tucker, in your statements 
that a lot of people don't recognize that they are in STEM or 
wanting to move in that direction because I am not sure they 
really understand what that means in the new economy.
    So I would like to ask you in terms of something that is 
kind of keying off what Ms. King and Dr. Plank and Dr. Lamb 
were talking about in the elementary school and high schools, I 
know in your written statement you talk about when people are 
entering the community and technical colleges they are really 
not prepared in the math and sciences to meet the challenges of 
what even an associate's degree or maybe a 1 year certificate 
would have. You do have some specialized programs in the career 
and technical colleges to try to meet that gap. Could you talk 
about that a little bit?
    Dr. Tucker. Certainly. Thank you, Senator Capito.
    As I mentioned in my written testimony, about 64 percent of 
our students come to us unprepared for mathematics works in 
community college in West Virginia. That is a pretty common 
percentage across the Nation. West Virginia is not unique in 
that number. And one of the things that we have found is that 
when students are receiving a very hands-on career technical 
STEM education their interest in mathematics and science 
blossoms in a way that perhaps we did not anticipate or know 
that would happen and in a way that I think maybe we are not 
measuring as well as we ought to.
    But you all know from having your own children, having 
grandchildren, working with schools and students, kids' eyes 
light up when they get to manipulate something with their 
hands, when they get to do an experiment. And accessing that 
piece, that part of a student, particularly when they are in 
high school, a student who perhaps throughout the years of 
elementary school and middle school have seen themselves as 
failures, have seen themselves failing their math classes, 
failing their science classes, getting to really see that they 
can be successful, that they can do auto mechanic work, that 
they can think about what it might be like to learn how to code 
and how to do some of these other successful partnerships 
really changes the way that they view themselves and their 
abilities and helps us when they get to the community college 
to do that higher level training that they did not really think 
that they were able to do before.

                        DIVERSITY IN STEM FIELDS

    Senator Capito. What are you seeing in the STEM fields in 
terms of diversity in terms of females and males? I mean, is it 
still very heavily weighted towards males? I mean, how do we 
kind of----
    Dr. Tucker. It is very heavily weighted towards males with 
the exception of the healthcare industry. Healthcare industry 
is predominantly female, but it is not the case that somebody 
in healthcare needs a different type or less information in the 
STEM fields than somebody in advanced manufacturing or IT. We 
are starting to see some successes in getting more female 
students into those programs. Each of our colleges have 
examples like what you just talked about with BridgeValley, 
girls in engineering day, girls in STEM day, but I would like 
to see a more coordinated effort of those programs, a more 
systemic effort within our career tech-ed at schools and within 
our K-12 schools writ large to try to encourage female students 
to enter these programs. When they do, they are highly 
successful, but it is very difficult to get them in the door.
    Senator Capito. Dr. Lamb, do you find the same thing in 
Alabama?
    Dr. Lamb. We do. We find that giving them an awareness that 
these are fields that are open to them, that they like STEM 
fields, keeping them engaged, turning the lights on, turning 
the enthusiasm. They are very--we need to prepare them in high 
school to be able to step into those fields, but we find if 
they are well prepared, then any of the ways that we tend to 
classify individuals all melt away when they are in front of 
the skillsets and doing the job.
    Senator Capito. Well, I think mandatory for all of them 
ought to be the movie, Hidden Figures, and I think that would 
inspire any young lady in this day and age.
    Dr. Lamb. I would agree.
    Senator Capito. Especially since the main character there 
is a young woman who was born and raised in West Virginia. 
Thank you.
    Senator Blunt. All right. Senator Shaheen.

                 BUILDING A COMMUNITY FOR STEM LEARNING

    Senator Shaheen. Thank you, Mr. Chairman, and thank you all 
for being here. We also ought to tell young women that they get 
paid more if they are in those STEM jobs, something that I 
think we don't often enough point out to students.
    Everyone has talked about the fact that STEM jobs are the 
jobs of the future. The Department of Commerce estimates that 
STEM occupations are growing 70 percent faster than non-STEM 
occupations. In New Hampshire alone by 2018 we are going to 
need about 43,000 more STEM workers to fill the jobs that are 
being created, so this is a real challenge and it's one that we 
have got to meet if we are going to remain competitive in this 
country.
    Mr. Plank talked about the Title IVA grants and how 
important those are. I started out as a teacher and one of the 
things I learned very quickly is that not every kid was 
successful in the classroom work and that if you can find ways 
to reach them outside of the classroom that, as you all have 
pointed out, that that helps inside the classroom as well. And 
one of the things that I have watched directly in New Hampshire 
and it is now worldwide is the first robotics competition 
program which has been hugely successful, founded by Dean Kamen 
from New Hampshire.
    And we've got data that shows that the students who 
participate in the program are twice as likely to major in 
science or engineering. They are also more likely to finish 
their programs that they start because of that participation. 
And so one of the things that I was really excited to see in 
the Every Student Succeeds Act is that Title IV grant line that 
allows schools to use some of those dollars to support those 
kinds of out of school and in school extra classroom 
initiatives that gets kids excited about STEM subjects.
    So, I will go back to you, Mr. Plank. And can you talk 
about how important that is to be able to appeal to kids 
outside of the classroom sometimes to get them interested?
    Mr. Plank. Absolutely. Thank you so much for the 
opportunity. I think, Senator Shaheen, what you are referring 
to is actually building a community for STEM learning. And the 
STEM Ecosystems Movement was born in Orange County, California, 
studied by the National Academies of Engineering, and is a 
vehicle for success for learning.
    So in Tampa we have a wonderful community built of our 
cultural institutions, the Museum of Science and Industry. I 
have already mentioned the Florida Aquarium in some of my 
comments, as well as Hillsborough County Public Schools STEM 
centric companies such as Moffitt Cancer Center, one of the top 
cancer centers in the Nation, as well as some unlikely sources. 
For instance, Mr. Jeff Vinik, the owner of the Tampa Bay 
Lightning, is supporting the STEM Ecosystem at work there.
    What we are able to do with all of these organizations 
working together to leverage their limited budgets, we are able 
to create these types of experiences after school. STEM 
learning does not just take place Monday through Friday when 
schools are open and we know that.
    So how do we better connect the dots for children and for 
families? And so it takes a village, but there are 
opportunities available for all communities to braid and thread 
these experiences together for kids and it is extremely 
important.

                         HANDS-ON STEM LEARNING

    Senator Shaheen. And, Ms. King, you talked about what you 
have seen in terms of pairing teachers with engineers, people 
who have real world experience. One of the things I also like 
about some of these out of the classroom competitions and 
programs is that they also give kids exposure to mentors who 
have that real-world experience who can encourage them in those 
fields. Is that something you have seen as well?
    Ms. King. Absolutely. I am most familiar with a group 
called Techbridge and they are reaching out to young girls 
particularly in our underserved areas just south of Seattle. 
And so amazing opportunities for the girls to learn about 
computer science and engineering and STEM fields. It is a mix 
of inspiration for them. They are definitely visiting our 
workplaces in the Seattle area and they make a point of 
ensuring that these are largely students of color, Somali 
recent immigrants, Latina students, ensuring that when they are 
visiting an F5 or a Microsoft they are able to bring forward 
the female professionals who are working there from their 
communities as much as possible. And these girls, it opens up 
their eyes. And before they have these types of experiences, 
they don't even know what is right in their own backyard.
    And I think there is a good saying, ``You can't be it if 
you can't see it.'' And I think research tells us that most 
students, and particularly young women, are making decisions 
about what they feel comfortable with and confident in pursuing 
well before middle school. So I do believe these out of school 
experiences are a critical reinforcement, particularly in the 
elementary years.
    Senator Shaheen. I totally agree. And, Mr. Chairman, I hope 
we can look at that Title IV line item because I think for what 
we have seen in New Hampshire is that there are many school 
districts who if they just had a little bit of grant money 
could attract those private companies to help them support 
those kinds of programs. Thank you.
    Senator Blunt. I thank you, Senator. Senator Rubio.

                      HIGHER EDUCATION CURRICULUM

    Senator Rubio. Thank you. Thank you to the committee for 
holding this hearing. It's great to see Mr. Plank here from 
Hillsborough County in Florida. We had a chance to speak on the 
phone the other night and really this is for the entire panel. 
We talk about STEM education as just something good that we do 
in the country. And I think this committee and obviously this 
panel understands it's much more than that. This changes these 
dramatic changes in our economy, are happening at a pace that 
humanity has never seen. I always tell people we are having the 
industrial revolution, but it's happening every 3, 4, 5 years. 
And, of course, that has displaced a lot of people.
    And so if you just look at every aspect of our economy and 
you project out 10, 15, 20 years, it is hard to imagine any 
field of work that will not have--require some level of basic 
proficiency in science or technology, even if people don't 
envision it that way.
    There has been extensive coverage, for example, of the oil 
industry and some of these platforms that were once operated by 
numerous people on the ground and now are increasingly operated 
remotely through the use of technology all the way down to the 
fast food sector. I am sure everyone has seen an increasingly 
number of restaurants that are first piloting and ultimately 
will move towards these touch screen orders. And it begs the 
question, who is going to design those machines? Who is going 
to maintain them? And who is going to replace them when new 
ones are being designed?
    So literally every field is moving, every aspect of our 
life and of our society is becoming increasingly 
technologically reliant and there is no reason to believe the 
workforce.
    Now, the one thing I am very confident is that if you don't 
have 21st century skills you are truly going to struggle to 
find work in this country and in the 21st century to provide 
the sort of expectations people have. And that's why STEM 
education, we talk about it as kind of a small piece of our 
education that some people might try to go into because it has 
good paying jobs. I actually think we need to have a broader 
conversation about why basic STEM education should be 
increasingly become a part of our overall curriculum determined 
at the State level, of course, because I just can't imagine any 
field of work in the next 10 or 15 years that won't require 
everyone to be proficient to some degree on the use and 
application of technology.
    So I am concerned that our higher education--that our 
education system in this country is not yet there. And I am 
curious to hear from the panel, what can we do at the Federal 
level without mandates. I don't want us to design a national 
curriculum that we then go back and tell people, ``This is what 
you must teach.'' But what can we do to incentivize an 
acceleration in this process and this recognition that basic 
science, technology, engineering, and math concepts are a 
critical basic education tool for the 21st century? How can we 
incentivize and accelerate that process? And I will start with 
our Floridian on the panel, Mr. Plank.
    Mr. Plank. Thank you, Senator Rubio. And as I shared in our 
phone conversation, I think what we need to do is create time 
and space and support for schools to take risks and to grow 
when they are thinking about this iterative cycle and design 
thinking and problem-based learning and computational thinking 
and computer science that we would like to incorporate, as Ms. 
King has shared, all the way down into our earliest years of 
education.
    Districts and States need some flexibility to try new 
things. In terms of a curriculum that incorporates computer 
science, how do we build those opportunities into a 
kindergarten classroom all the way up through a high school 
classroom with limited time? We are not going to add more 
additional days to the school year and I would suspect that we 
are not going to add any more additional time to the school 
day, so how do we reframe those things?
    And so what we would hope is that through grant funding or 
other funding streams that we might have the opportunity to 
take those risks as school districts, try new things, and 
implement some of the research that we know is effective.
    Ms. King. Thank you. I think I would highlight two things. 
I think one is continuing Federal investments in areas like 
Head Start in Title I that get our youngest learners and our 
most disadvantaged learners the supports that they need and 
their teachers and families need to help set that strong 
foundation for STEM going forward. We have great examples 
across our State where those are critical pieces of the 
equation, of delivering a really strong STEM education, 
offering the STEM enrichment that our students deserve and our 
teachers need for their professional development.
    I think the other piece around incentives is every time 
where in Washington State incentives from the Federal 
Government have required private sector and State and local 
matches we have been able to more than meet and exceed that. So 
I think registered apprenticeships and things that bring 
employers to the table are also important.
    Dr. Tucker. Thank you, Senator. I will tell you that I have 
been really excited in the past couple of years by 
opportunities that have traditionally not been opened up to 
community colleges that have been. A number of NSF grants are 
focusing on community colleges now. A number of NASA grants are 
focusing on community colleges now, providing professional 
development for community college instructors and faculty 
members, that they have state of the art knowledge about 
exactly what Dr. Lamb was talking about earlier, access to the 
latest cutting edge techniques. And frankly, that historically 
has not been open to the community college world. So I have 
been very grateful for that and very thankful that that has 
happened.
    I think one of the things, and it is not an addition of 
monies, but it is an acknowledgement that what we do at 
community colleges is fundamentally different than what happens 
at baccalaureate institutions. And so there are differences in 
terms of length of program, when programs begin, what it looks 
like to work with an employer, what it looks like to have an 
internship opportunity that might require broadening of 
definitions for some of the grants that are made available. 
That would encourage our colleges to continue to innovate.
    Community colleges are very, very good at innovating. There 
is an infrastructure problem in place as far as making sure 
that you have enough trained faculty that you have the 
professional development that you need, that you have the 
equipment that you need to provide the types of the state of 
the art technology that our students need and that our 
companies need us to have.
    I do think we have come a long way and the Federal 
Government has come a long way in supporting community colleges 
very, very differently than it has in the past. And I would 
just encourage you to continue to do so.
    Dr. Lamb. One of the challenges of going last is that all 
the wonderful ideas have already--many of the wonderful ideas 
have already been said. I would argue that or advocate that for 
a word that we have heard from Mr. Plank before, which is 
braid, that very intentionally we braid in, we weave together 
multiple strands. So as we look at ways to incentivize, how do 
we look at tying in industry? How do we look at tying in the 
level that is immediately above and the level that is 
immediately below? So if we are looking at a middle school, how 
do we make sure that we are building the correct path for the 
elementary students and how do we begin thinking about how we 
pull the career individuals in?
    We often tend to think of STEM as maybe we should focus in 
one specific area. I don't think anyone ever says that we 
should only teach how to write in third grade. It is a 
progression. We start with how do we recognize words, how do we 
form sentences, and then how do we move on to more advanced 
writing. I think in STEM development we want to look at that 
same sort of progression and how do we meet students where they 
are appropriately, but also give them paths for what the next 
set of opportunities look like.
    Senator Blunt. Senator Kennedy.

                             K-12 EDUCATION

    Senator Kennedy. Thank you, Mr. Chairman. I am sorry I was 
late today. I will read your testimony.
    I agree with you about the emphasis on community colleges. 
In my State, Louisiana, we started emphasizing community 
colleges about maybe 10 years ago. Before that, our system was 
upside down. One of the best models to follow, in my opinion, 
was in Florida. Florida had a pyramid with a flagship at the 
top, and then intermediate institutions, then community 
colleges, and they had a pyramid.
    We had a pyramid in Louisiana, but it was upside down. We 
had a flagship and then we had schools just below that, all of 
which wanted to be the flagship, and then we had a few 
community colleges at the end. And so that has helped and I 
think it can help in terms of STEM research, but let me tell 
you what I think is the fundamental problem.
    In my State, we are spending about $13,000 a year on public 
school students in elementary and secondary education. And we 
can do extraordinary things as Americans. Our people can take a 
diseased human heart and replace it with a new one and make it 
beat. We can unravel the human genome. We can send somebody to 
the moon and bring them back. But we have lost our way in terms 
of teaching our kids how to read and write when we have got 18 
years to do it. And that, to me, is the fundamental problem. 
How do you fix that?
    Mr. Plank. I'll go ahead and take a stab at that.
    Senator Kennedy. Please.
    Mr. Plank. If I have the silver bullet, I assume that other 
districts will be lining up to take me home. I think----
    Senator Kennedy. You can come to Louisiana if you have the 
silver bullet.
    Mr. Plank. Absolutely. I agree with you that we are not 
doing the best job that we can with public education. And what 
I see in my district, which I shared is probably a microcosm of 
the Nation, where we are failing is student engagement. And, 
you know, students come to school.
    Of course, they need to be literate. Of course, we need to 
teach reading and writing. But what we find oftentimes is the 
students who struggle are the students who don't have the 
opportunity to enjoy robotics. They don't have the opportunity 
to enjoy a STEM elective.
    And so what we need to ensure with our legislation is that 
all kids have opportunities to learn in a fun and innovative 
and exciting way.
    Senator Kennedy. Dr. Plank, but what I--excuse me for 
interrupting.
    Mr. Plank. No problem.
    Senator Kennedy. But I understand that, but I am talking 
about before we can encourage kids to pursue further education 
in the STEM area they have got to be able to read and write. 
And I haven't been up here for very long, but I have been in 
Government for a while. And you know what I have found? I have 
found that about 99 percent of the experts who talk about the 
problem in elementary and secondary education haven't been in a 
public school other than to talk to a civics class about how a 
bill becomes law for about 30 years.
    And one of the things I am thinking about doing is 
introducing a bill. It probably won't pass, but to require 
every member of the United States Congress to be a substitute 
teacher at least once a year in a public school in his or her 
district. I have been doing it for 13, 14 years now in 
Louisiana. I do it three times a year. We need substitutes so 
bad.
    All you have to do is have an undergraduate degree and go 
to an orientation. They will even take politicians. And I mean 
a real substitute teacher. Start at a quarter until 7:00, go to 
2:45, teach five classes, do bus duty, do lunchroom duty. And 
it is you and 30, 25 to 30 kids. And then come back and we can 
talk about elementary and secondary education.
    But until we get that fixed, I just don't see how we're 
going to do any better further down the pipeline. And I don't 
mean to cut you off, but I would love for all of our kids to be 
well versed in robotics, but first I would like them to be able 
to read their diplomas.
    Mr. Plank. Well, what we would hope, Senator Kennedy, if 
you don't mind, is that that robotics class inspires children 
to read to know more about robotics. And that is the hook. That 
is the engagement. What we are finding is that if students 
don't have something that they are passionate about, the 
learning process is obviously stunted.
    Senator Kennedy. I agree with that.
    Mr. Plank. Right. Thank you.
    Senator Kennedy. And I am sorry to cut you off, but if 
robotics, if making them take robotics will work, let's try it. 
I am willing to try anything.
    Senator Blunt. Thanks, Senator. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Senator Blunt. We barely let you get to sit down----
    Senator Manchin. That's all right. I'm ready.
    Senator Blunt [continuing]. Before we ask you to ask 
questions.

                     CAREER AND TECHNICAL EDUCATION

    Senator Manchin. I want to thank all our panelists today 
and everything, but especially Dr. Tucker, who has done a great 
job in West Virginia. We are very proud of her.
    Dr. Tucker, in your testimony you mentioned a partnership 
between Blue Ridge Community and Technical College, Procter and 
Gamble, and local high schools, the importance of getting K-12 
students engaged in STEM from an early age. And I have been a 
strong supporter of the career and technical education, as you 
know, and we put the technical center in down in Charleston and 
I think it has done very well. And the Toyota thing has been a 
tremendous opportunity and it is something I would, if you all 
don't do it in your State, you ought to look at how they have 
partnered up and they take that student who probably would 
never have gone to college in any way, shape, or form, put them 
in a college program and a career path for it, and they pay 
them as they are going through. So there is a real incentive to 
do it and it keeps them clean too. It keeps them very clean, 
very out of trouble and very clean.
    So can you elaborate on the importance of the career and 
technical? If you have done it, I am so sorry to ask you, but 
if you have, it is worth repeating, I'm sure, for the building 
a strong workforce in West Virginia, which we are concerned 
about.
    Dr. Tucker. We have to create a clear pathway from career 
tech ed into our community colleges. If we don't, we will be 
dead on the vine. I mean, that is just the reality of it.
    One of the problems that we face in West Virginia, and I 
don't think that it is unique to West Virginia, is that the 
folks that are giving our students' advice about where to go to 
college all have baccalaureate degrees. I did. They don't have 
associate degrees and so they don't necessarily know a lot of 
information about what a community college has to offer. You 
advise people hopefully about what you know and what you are an 
expert in. You don't necessarily advise people about what you 
don't know.
    And so one of the things that we have been trying to do 
with career technical education is create very clear pathways 
between our career tech ed centers and our community colleges. 
In many cases, those pathways will essentially buy a student 
out of an entire year of an associate's degree. They will take 
those courses that they need at the career tech ed center.
    Where we are able to, we are trying to bus students from 
the career tech ed center or from the high school, which is the 
case of Blue Ridge, to our community colleges because what we 
are finding, particularly for those students who have limited 
access to college, who are first generation students who don't 
view themselves as a college student. Having some success on a 
college campus makes them feel like a college student.
    And I will say that is not just for high school students. 
We found the same things for dislocated workers and unemployed 
folks in the State of West Virginia. When we have workforce 
offices on our college campuses and people who are coming to us 
unemployed have some success in our community college, they 
start to see themselves as a community college student and no 
longer a dislocated worker.

                       BROADBAND'S IMPACT ON STEM

    Senator Manchin. Doctor, let me say this to my colleagues 
here. We have a thing called Mine Minds. And what this group 
has done, two entrepreneurs, the one lady had a brother who was 
a laid off miner in another State. And what they are doing is 
teaching them coding, computer coding. Now we are teaching 
computer coding and Mine Minds at the community technical 
schools. And what she is saying, you are seeing these tough old 
burly coal miners, they are coming in and you would never think 
they know how to turn a computer on. They are absolutely lit 
up, unbelievable the opportunities we are unleashing right now.
    Let me say. Any of the other panelists here, the broadband, 
the impact of broadband gap in STEM education, what are you all 
seeing in that, the gap between Internet? We have a broadband 
problem in West Virginia, connectivity. Are you seeing a 
correlation or a disconnect? Anybody want to speak on that?
    Ms. King. I will. We definitely have rural areas in 
Washington State that are still lacking broadband or wireless. 
And I think, you know, to the point that Senator Rubio raised, 
how do we embed STEM in that it is part and parcel of our 
everyday experience if we don't have access to broadband and 
wireless.
    We also, as teachers, are innovating with the professional 
development. We now have some teachers who are using cameras, 
so cameras and Bluetooth technology, so they can have real-time 
coaches if their coaches are not in their rural areas. They can 
be anywhere across the State or the world, for example. But 
teachers, again, need access to that technology to access that 
type of support.
    Senator Manchin. Let me--I will finish up. My time is 
running out. I was at the Polish Embassy and we were doing a 
collaboration, State of West Virginia, working as far as in 
connectivity and trying to exchange in some of our high-tech 
industries. And the Polish ambassador was bragging about they 
are producing and educating more engineers in Poland than the 
entire United States.
    I don't know if it is accurate or not, but he was sure 
proud about it. It might be fake news. I am not sure. We are 
going to check this one out, but let's say if anything they 
have been unbelievable and it's a small country. And it just 
tells you how far we have lagged behind because we are not 
grabbing that youth at a very young age and the excitement of 
understanding and learning and how much STEM can be.
    So we thank all of you for being here today.
    Senator Blunt. I think we have a few more minutes if there 
are some other questions. Senator Murray.

                        FEDERAL SUPPORT FOR STEM

    Senator Murray. Yes. I just have a couple. And I want to 
thank Senator Manchin for mentioning broadband and access 
because people think I come from Washington State, home of 
Microsoft, Amazon, etc. But we have a lot of areas in our 
State, startling enough, who do not have access, so a critical 
question.
    Dr. Tucker, I wanted to ask you. You talked about the 
importance of the Department of Labor's Dislocated Worker 
Emergency Grant Program and its support for West Virginia coal 
miners who are getting training that allows them to find 
sustainable jobs in their own communities. That is a Federal 
investment that gives our States a lot of flexible resources to 
respond quickly to large, unexpected layoffs. In fact, I know 
that just last month Kentucky got $2 million to provide 
employment service to coal miners who were affected by a 
layoff.
    I am deeply worried about the President's budget that is 
coming out this week and what it will be looking at cutting. 
Can you talk to us a little bit about, what it would mean if 
the Federal support for programs like that would go away?
    Dr. Tucker. If we lost the Dislocated Worker Training 
Grant, it would be fairly devastating for a significant portion 
of our population. We have tens of thousands of coal miners 
that have been laid off in the State of West Virginia. One of 
the real beauties of the way that that grant program was laid 
out, as far as I am concerned, is that it also allowed for 
training dollars for spouses of dislocated coal miners and 
children of dislocated coal miners to get retrained.
    Now why this is important, particularly for coal miners, is 
that the coal mining industry is cyclical. And coal miners 
believe that it is going to come back. And so there are quite a 
few coal miners who will not retrain and will not reenter the 
workforce because they are waiting until that day when they get 
called back to the mines. And frankly, historically, that is 
exactly what has happened, so they have good reason to believe 
that that's what will happen again.
    And what has happened as a result of the way that this 
grant program has been structured is that we have seen a number 
of spouses of coal miners end up going into retraining so that 
they can support their family on the times when coal mining is 
down and there is no money coming into the household. We have a 
significant number of wives who are being trained in allied 
health fields, getting nursing degrees, getting various degrees 
that will support their family so that when the mines downshift 
they still have a way to pay for their lifestyle.
    That has been really an essential part of that grant, but 
also being able to retool and retrain coal miners into another 
profession, it is critical. With the number of coal miners that 
we have in West Virginia, if we don't do something to help 
them, if we don't do something to make sure that they have the 
skills that they need to be successful in another career, West 
Virginia is going to continue to slide, and frankly, we can't 
afford to.

                             APPRENTICESHIP

    Senator Murray. Thank you. And one last question, Ms. King. 
Senator Blunt and I were able to fund a new $90 million 
national apprenticeship grant in 2016 which is now supporting 
the Nation's first technology sector apprenticeship in 
Washington State. Talk to me a little bit about how important 
that Federal investment has been.
    Ms. King. Yes. Thank you. That Federal grant has been 
imperative to help us in our State start the Apprenti program. 
So this is the technology, it is the first registered 
apprenticeship in technology. Washington State has a long 
history, and about 250 registered apprenticeships, but mostly 
in the building trades and more traditional sectors. So it is 
revolutionizing the apprenticeship concept and meeting the 
needs of the tech employers today and also reaching out to 
disconnected in communities, who are disconnected from where 
our economy is going, so the returning veterans, people of 
color, people in rural areas and giving them the best and 
fastest entry point into our economy today.
    So about over 5 years about 600 people will be trained and 
while they're trained, they are actually receiving wages. It is 
on the job training.
    Senator Murray. Correct.
    Ms. King. The key to success is engagement with employers 
from the get go. Employers help vet and select the apprentices 
even before they walk into the program. The employers help 
design and deliver the training. And then the employers are 
going to be excited to hire those people full time. And we have 
also been thankful that Washington State also received another 
Department of Labor Expansion Grant so that we can help export 
this emerging successful model from Washington to other States 
because we know other States are also facing tech shortages.
    Senator Murray. All right. Thank you.
    Ms. King. I would also add that employers to date are 
extremely happy with the program even though it is just in its 
first year. The heads of diversity from Microsoft and other 
companies are saying that this is also not just meeting their 
employment needs, but also helping them diversify their 
workforce, which is another imperative because these are global 
companies.
    Senator Murray. Right. Thank you. Thank you very much.

                            YEAR ROUND PELL

    Senator Blunt. While you are all here, let's talk about 
year-round Pell for a minute. We are hopeful still. I think 
almost everybody on the appropriations committee and lots of 
members who aren't, that when we make the final spending 
decision for the rest of this year, that we will have updated 
that with the debate and the bills we worked out last year. And 
one of the things that we were able to add was year-round Pell.
    You mentioned that, Dr. Tucker, but others may have 
something to add too. Just give me some more ammunition about 
the value of year-round Pell, which we had for several years 
until a few years ago, and what happens when you have that Pell 
gap in the summer. And everybody--anybody that wants to add to 
this particular topic, it may be the last topic we get to 
today, but there will be some questions that may be submitted 
after today. Go ahead.
    Dr. Tucker. I can give you one more piece of ammunition, 
Senator. Try to have a conversation with an employer about why 
we can't keep a training program during the summertime so that 
they can hire people because there is no summer Pell and so our 
students can't get the financial aid they need to be 
successful.
    It is a very confusing conversation to have for employers 
who do not live in that world and do not understand it. They 
need people, they need trained people, and they need them in 
positions. And I just think fundamentally we oughtn't to be 
having restrictions in place that prohibit us from putting 
people into the workplace when we know that we need them to be 
there.
    Dr. Lamb. I would just add that it is very difficult to be 
nimble as an employer and to respond to immediate and emerging 
trends when you do not have access to the funding to be able to 
train the people that you need to hire immediately.
    Senator Blunt. Well, I think both of those comments are 
very helpful. You know, we have mostly been focused on the 
clearly demonstrated idea that if you are in school, 
particularly if you are an adult returning to school or 
somebody, first person in your family to go to college, that if 
you can stay, whatever you've got working for you, if you can 
keep that working, you dramatically impact the likelihood that 
you will finish. But this employer addition of, now, okay, we 
need to take a summer break in this training program because we 
don't have the Pell support that we would have in these 
training programs, very helpful.
    Senator Manchin, do you have anything else you want to add 
today?

                           TECHNICAL TRAINING

    Senator Manchin. I just--everything everyone is doing 
realizing that basically every child is not going to go to 4-
year baccalaurean school. They are not going to get a degree as 
a 4-year. They are not going to go on to graduate school, but 
by golly, they can get back into the workforce and they want to 
get back in the workforce. And we have left a lot of people 
behind. So, you know, I kept thinking back when we were--and, 
Roy, you and I can relate to this, we used to have shop, cankle 
drawing and shop. That was our basically intro into any type of 
career, if you would.
    Some kids took it from there and they had auto mechanic. 
They had woodworking. They became carpenters and all of that. 
And some of us were going to go on and use it. Anyway, it was a 
skillset we never left. But today trying to reach them again is 
something and you are getting non-traditional students. You are 
getting people basically that have been out in the workforce 
and things aren't working out well. And we see it repeat itself 
in West Virginia, being a heavy lifting State.
    So I think that anything you can do to make sure that the 
primary and secondary education understands and get these kids 
acclimated to that type of a setting makes all the difference 
in the world. What they are really saying, we get a lot of 
people that criticize. They are saying that we are training for 
jobs that are not there or any time there is training dollars 
when people are displaced. And we are not really looking at 
marrying up basically the jobs that are available, the jobs 
that should be there, with the training they are going to need.
    So what got me really set on this was, I was up in, when I 
was governor, I was up in Canada and visiting Bombardier. Then 
I went to General Motors who had a big Tahoe plant there. They 
had their community technical school right inside the plant. 
They had real on job training. So, basically, no different than 
a--you know, a lot of hospitals pick their doctors when they go 
through rotation. They find out who fits well, who basically 
fits in the community, how good their bedside manner is, if 
they just blend, and that is how they pick them. They get a 
free look-see.
    These companies are starting now, and we can cycle, like 
Toyota. Toyota gets a first look-see. They don't have to 
interview 50 people and hoping that 10 work out. If they see 20 
and they need 20, they will pick the best that they have coming 
through. And that just makes all the sense in the world. So, I 
thank all of you for, let's redirect our dollars and get a 
bigger bang for our buck. I appreciate that.
    Senator Blunt. Thank you. Thank you, Joe.
    Thanks to our witnesses. The record will stay open for 1 
week. The committee stands in recess.

                          SUBCOMMITTEE RECESS

    [Whereupon, at 11:55 a.m., Wednesday, March 15, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
